<html>
<title> - THE 2010 CENSUS COMMUNICATION CONTRACT: THE MEDIA PLAN IN HARD TO COUNT AREAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
THE 2010 CENSUS COMMUNICATION CONTRACT: THE MEDIA PLAN IN HARD TO COUNT 
                                 AREAS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                           Serial No. 111-83

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov
THE 2010 CENSUS COMMUNICATION CONTRACT: THE MEDIA PLAN IN HARD TO COUNT 
                                 AREAS






THE 2010 CENSUS COMMUNICATION CONTRACT: THE MEDIA PLAN IN HARD TO COUNT 
                                 AREAS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                           Serial No. 111-83

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
61-800                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
HENRY CUELLAR, Texas
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2010................................     1
Statement of:
    Bakewell, Danny, chairman, National Newspaper Publishers 
      Association; James L. Winston, executive director, National 
      Association of Black Owned Broadcasters; and 1Sandy Close, 
      executive director, New America Media......................   374
        Bakewell, Danny..........................................   374
        Close, Sandy.............................................   388
        Winston, James L.........................................   382
    Groves, Robert, Director, U.S. Census Bureau; Jeff 
      Tarakajian, executive vice president, DraftFCB; Robbyn 
      Ennis, senior associate media director, Globalhue; and 
      Nelson Garcia, Sr., vice president/media director, 
      Globalhuelatino............................................    13
        Ennis, Robbyn............................................   143
        Garcia, Nelson...........................................   133
        Groves, Robert...........................................    13
        Tarakajian, Jeff.........................................    24
    Narasaki, Karen, executive director, Asian American Justice 
      Center; Arturo Vargas, executive director, National 
      Association of Latino Elected Officials; Helen Hatab 
      Samhan, executive director, Arab American Institute 
      Foundation; and Linda Smith, executive director, National 
      Association of American Child Care Resource and Referral 
      Agencies...................................................   293
        Narasaki, Karen..........................................   293
        Samhan, Helen Hatab......................................   341
        Smith, Linda.............................................   361
        Vargas, Arturo...........................................   316
Letters, statements, etc., submitted for the record by:
    Bakewell, Danny, chairman, National Newspaper Publishers 
      Association, prepared statement of.........................   378
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah:
        Information concerning the adjudication process..........   279
        Letter dated May 14, 2010................................   284
        Summary of the 2010 address canvassing cost analysis.....   162
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Close, Sandy, executive director, New America Media, prepared 
      statement of...............................................   390
    Cuellar, Hon. Henry, a Representative in Congress from the 
      State of Texas:
        DraftFCB subcontractor obligations to date...............   216
        Letter dated May 14, 2010................................   165
    Ennis, Robbyn, senior associate media director, Globalhue, 
      prepared statement of......................................   145
    Garcia, Nelson, Sr., vice president/media director, 
      Globalhuelatino, prepared statement of.....................   135
    Groves, Robert, Director, U.S. Census Bureau, prepared 
      statement of...............................................    15
    Jackson Lee, Hon. Sheila, a Representative in Congress from 
      the State of Texas:
        Black audience media buy schedule: print and radio.......   224
        Letter dated January 13, 2010............................   400
        Letter dated January 15, 2010............................   403
        Letter dated March 9, 2010...............................   219
        Letter dated May 14, 2010................................   174
        List of local Black newspapers receiveing 2010 census 
          advertisement..........................................   406
        Prepared statement of....................................   181
    Johnson, Hon. Henry C. ``Hank,'' Jr., a Representative in 
      Congress from the State of Georgia, prepared statement of..   373
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........     9
    Narasaki, Karen, executive director, Asian American Justice 
      Center, prepared statement of..............................   295
    Samhan, Helen Hatab, executive director, Arab American 
      Institute Foundation, prepared statement of................   343
    Smith, Linda, executive director, National Association of 
      American Child Care Resource and Referral Agencies, 
      prepared statement of......................................   363
    Tarakajian, Jeff, executive vice president, DraftFCB, 
      prepared statement of......................................    26
    Vargas, Arturo, executive director, National Association of 
      Latino Elected Officials, prepared statement of............   318
    Waters, Hon. Maxine, a Representative in Congress from the 
      State of California:
        Letter dated May 14, 2010................................   155
        DraftFCB subcontractor obligations to date...............   193
    Winston, James L., executive director, National Association 
      of Black Owned Broadcasters, prepared statement of.........   384


THE 2010 CENSUS COMMUNICATION CONTRACT: THE MEDIA PLAN IN HARD TO COUNT 
                                 AREAS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 7:12 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Cuellar, and Chaffetz.
    Also present: Representatives Waters and Jackson Lee.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Yvette Cravins, counsel; Frank Davis and Anthony 
Clark, professional staff members; Charisma Williams, staff 
assistant; Leneal Scott, IT specialist--full committee; Jim 
Hayes, minority professional staff member; and Adam Fromm, 
minority chief clerk and Member liaison.
    Mr. Clay. The subcommittee will come to order.
    Good evening and welcome to tonight's hearing entitled, 
``The 2010 Census Communication Contract: The Media Plan in 
Hard to Count Areas.''
    Today's hearing, as the title indicates, will examine the 
2010 Census Integrated Communications Campaign in hard-to-count 
areas. The hearing will assess and examine ethnic print and 
broadcast media's role in preventing an undercount. We will 
further examine avenues to aid the Census Bureau in its efforts 
to reach those who are more likely to be undercounted--
children, minorities, and renters.
    We have with us today a distinguished colleague, 
Representative Maxine Waters of California who has asked to 
participate in this hearing. I want to welcome her and express 
my appreciation for her attendance, and I ask unanimous consent 
that she be allowed to participate.
    Thank you.
    Without objection, the chairman and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any Member who 
wishes to make one.
    Without objection, Members and witnesses may have 5 
legislative days in which to submit a written statement or 
extraneous materials for the record.
    The purpose of today's hearing is to examine the Census 
Communications Campaign in hard-to-count areas. An 
unprecedented amount of Federal dollars has been expended 
toward the constitutionally mandate exercise of counting our 
Nation's population. We have the funding necessary to carry out 
this endeavor. However, we must assess and ensure the best 
placement and use of our taxpayer dollars.
    Let me state again, these are taxpayer dollars. We cannot 
forget that. So we must, through our oversight, ensure that the 
taxpayer receives their money's worth. Advertising dollars must 
be contributed to specific mediums to best touch our Nation's 
hardest to count population. I salute Dr. Groves for his 
efforts and hope this hearing brings forth great ideas and 
input from all who care so deeply about this issue.
    On our first panel we will hear from Dr. Groves and the 
Census government contractors who will testify about the Census 
campaign, including the media strategy, development, and 
placement of advertising dollars.
    Our second panel includes leaders of some of the largest 
civic and professional organizations dedicated to minority 
participation, education, and equality. These witnesses have 
been instrumental in spreading the message of Census and will 
testify regarding their experiences and concerns. This panel is 
acutely aware of the challenges of enumerating the hard-to-
count population.
    Our last panel consists of not only media experts in ethnic 
broadcasting but also those whose endeavors focus on our most 
hard-to-count population, our Nation's children. These 
witnesses serve as the active, trusted voices in many of the 
hard-to-count communities. This panel will offer 
recommendations they believe will improve the effectiveness of 
the media campaign going forward.
    Census day is a mere 5 weeks away, so let's work together 
and exchange ideas to ensure an accurate count.
    I thank all of the witnesses for appearing and look forward 
to your testimony.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.001
    
    [GRAPHIC] [TIFF OMITTED] T1800.002
    
    [GRAPHIC] [TIFF OMITTED] T1800.003
    
    [GRAPHIC] [TIFF OMITTED] T1800.004
    
    [GRAPHIC] [TIFF OMITTED] T1800.005
    
    Mr. Clay. I now yield to the distinguished ranking member 5 
minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman; and I thank you all 
for being here this late and unpredictable hour. I appreciate 
your patience and understanding.
    Mr. Chairman, I ask unanimous consent to submit the 
statement of Ranking Member Patrick McHenry, who was detained 
and who could not be here.
    Mr. Clay. Without objection.
    Mr. Chaffetz. Thank you.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC] [TIFF OMITTED] T1800.006

[GRAPHIC] [TIFF OMITTED] T1800.007

    Mr. Chaffetz. I do want to talk about the details of what 
is happening and not happening within the advertising. This 
comes around once every 10 years, and I recognize the short 
amount of time that we have until the execution, and we need 
the maximum participation from the American people. We want to 
encourage everybody to participate in every way, shape, or form 
and recognize the difficulties in trying to get the hard to 
reach and hard-to-count populations.
    Obviously, on both sides of the aisle, we want to make sure 
that everyone is counted. It is a very difficult task, to say 
the least. As the chairman said, we are using taxpayer dollars 
and so we want to ensure that those are being maximized and we 
are getting the maximum results.
    I, for one, am terribly disappointed in the Census, in 
their inability and unwillingness to cooperate in giving us 
details that we have asked for repeatedly. I hold Director 
Groves personally accountable for his unresponsiveness in a 
repeated nature. I think it is terribly disrespectful and 
unacceptable.
    When I have asked repeatedly for information, you have 
repeatedly refused to give it to us. I am a Member of the U.S. 
Congress. You have a duty and an obligation to perform your 
duties and provide this Congress and this committee details 
that we ask for.
    Sir, I find your actions reprehensible. I will continue to 
grill you as long as it takes, and the organization, to provide 
the information that I think the American people should have; 
and I hope at some point there is some sort of attitude 
adjustment in providing the information that I think the 
American people should have.
    I don't think that we can continue on like this. It is a 
late hour. The Olympics are on, and there is a lot happening. I 
promise you we will continue to pursue this information well 
into the future and hope at some point you give us a genuine 
answer and provide genuine information, as you promised in the 
last hearing I was in with you, because I think the information 
and the promises you gave me personally in this committee were 
not followed up.
    That is my personal perspective. You may have a different 
one. I respect that. But I assure you we will continue at this 
until we get the information we have asked for.
    Further, I believe we need to look at the results of the 
advertising campaign and the direction that it is going. I hope 
you understand and respect that we are not here to just pat you 
on the back, that we are here to ask you difficult questions, 
and I have some serious questions about what we are doing and 
not doing in that regard.
    Following up long term, I do have questions about the 
American Community Survey, the questions that are asked, how 
that is executed, the money that we have spent on it. We won't 
have time in this hearing, but I would like to followup with 
the appropriate panel members, Mr. Chairman, as we move forward 
on that in the future.
    I yield back the balance of my time.
    Mr. Clay. We will maintain order and decorum in this 
hearing; and, Mr. Chaffetz, we will maintain a tone here that 
is civil.
    I now recognize the gentlewoman from California, if she has 
an opening statement.
    Ms. Waters. Thank you, very much Mr. Chairman. I am very 
appreciative for your allowing me to participate in this 
hearing today.
    I know that you have been working very, very hard and you 
have been keeping many of us informed about what is going on 
with the Census Bureau and the Census count that is being 
attempted, but I am increasingly concerned about much of the 
information that I am getting. Some of it has come from the 
Black newspapers, Black radio stations, some of the information 
that has come from minority organizations, period.
    It appears that our message of the undercount is not being 
respected. The fact of the matter is, every 10 years we learn 
about the undercount, and you would think that the undercount 
communities would be targeted with the necessary resources to 
reverse that and to get a better count. But it does not appear 
to be happening.
    I am concerned about the way in which conclusions are 
reached about how to reach minority populations. There is a lot 
of speculation about what is and what is not proper and 
appropriate and effective in reaching minority populations.
    I have not heard any information about how these 
conclusions were reached, whether or not there were the kind of 
focus groups that represented these populations. I have not 
seen the research. I have not seen the data that supposedly 
represents these communities, and the money does not appear to 
match the need. And so I am here today to learn what is going 
on. I think we may have some additional work to do.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Clay. Thank you so much, Ms. Waters; and perhaps we 
will get some of the answers to your questions this evening. 
You raised legitimate concerns, and we certainly want to have 
yours and Representative Chaffetz's questions answered.
    So let's start by introducing the panel.
    We will hear first from Dr. Robert Groves. President Obama 
nominated Dr. Groves as Director of the Census Bureau, and Dr. 
Groves began his tenure on July 15, 2009. Dr. Groves is well 
qualified for the position that he holds as Director of the 
Census Bureau.
    Testimony on this panel will also come from DRAFTFCB, Mr. 
Jeff Tarakajian, and subcontractors GlobalHue and 
GlobalHueLatino, represented by Robbyn Ennis and Mr. Nelson 
Garcia.
    Jeff Tarakajian is executive vice president of DRAFTFCB, 
the prime contractor of the 2010 Census Integrated 
Communications Campaign.
    Ms. Robbyn Ennis is the media director at GlobalHue, a 
Black-owned, full service advertising agency. Ms. Ennis is an 
experienced advertising professional with 12-plus years of 
media planning and buying experience. Ms. Ennis manages overall 
media planning and buying operations of GlobalHue.
    Mr. Nelson Garcia is the senior vice president/media 
director at GlobalHueLatino. Mr. Garcia is a 30-year 
advertising industry veteran. Mr. Garcia has held multicultural 
media management positions at top mainstream and leading 
specialty multicultural advertising agencies.
    Thank you all for appearing before the subcommittee this 
evening. It is the policy of the committee to swear in the 
panel.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses have 
answered in the affirmative.
    Each of you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. Of course, you know the lighting system in 
front of you.
    Dr. Groves, you may proceed with your opening statement.

STATEMENTS OF ROBERT GROVES, DIRECTOR, U.S. CENSUS BUREAU; JEFF 
 TARAKAJIAN, EXECUTIVE VICE PRESIDENT, DRAFTFCB; ROBBYN ENNIS, 
SENIOR ASSOCIATE MEDIA DIRECTOR, GLOBALHUE; AND NELSON GARCIA, 
       SR. VICE PRESIDENT/MEDIA DIRECTOR, GLOBALHUELATINO

                   STATEMENT OF ROBERT GROVES

    Dr. Groves. Chairman Clay, Ranking Member Chaffetz and 
other members of the subcommittee, I am happy to be here to 
testify on the 2010 Census Communications Campaign. I 
personally am confident that the campaign is a sound design, 
the messaging is clear, and that our contractors, with the 
guidance of my colleagues at the Census Bureau, are purchasing 
media that will reach hard-to-count populations and motivate 
them to respond to the Census.
    Consistent with the statistical mission of the Census 
Bureau, the campaign was designed based on statistical data. 
Let me tell you a bit about how we did this.
    The staff first assembled rates of response to the 2000 
census way down at the Census track level and also undercount 
estimates for key socio-demographic groups. Groups with low 
participation rates were identified for disproportionate focus.
    Then the contractor identified media outlets that reached 
those different groups, focusing when appropriate on in-
language media. It was clear from this that more funds should 
be spent locally than nationally, and that is true in contrast 
to the 2000 media buys.
    Then the media buys were directed by the nature of the need 
for a given audience. By that, we mean whether print media were 
chosen, radio media, TV, or digital media.
    The campaign is designed in three phases. There is an 
awareness phase that is going on right now through mid-March. 
The second is a motivation phase that runs mid-March through 
mid April. And the third is a nonresponse followup stage that 
is designed to ensure or encourage the population to cooperate 
with Census takers who visit their homes to followup those 
households who did not send in their Census form.
    The mass advertising part of this campaign will target the 
English-speaking audiences, and additional specific advertising 
will be geared toward a range of diverse audiences, including 
hard-to-count populations. The mass campaign is designed to 
reach the almost 85 percent of the residents who consume paid 
media and who speak English only. However, it is also going to 
reach other ethnic and language audiences, especially the Black 
audience to the extent that they are consumers of those same 
media outlets and diverse mass.
    Each of the targeted audience plans--Black, Hispanic, 
Asian, etc.--has been designed to penetrate the individual 
markets sufficiently to achieve our campaign goals. The 
research behind the campaign focused on understanding the 
societal factors that help contribute to low response rates in 
the 2000 series. Among the key indicators are the rates of 
public assistance in the area, unemployment rates, 
homeownership versus renting, and linguistic isolation. This 
research, along with commercial market research from Arbitron, 
Neilsen and Simmons gave us the guidance to guide the media 
buys.
    Then our contractors entered into negotiations for the 
media buys for national and local outlets. They followed 
industry practices which seek added value from the outlets 
beyond the price of the placements sought by an advertiser.
    An example of this for the 2010 campaign is additional 
broadcast spots provided for free, celebrity endorsements or 
mentions of the Census in programming or through public service 
announcements.
    As of late January, the Census team had negotiated almost 
$30 million in added value for media outlets. When all is said 
and done, we expect that to represent about 25 percent when 
finalized after nonresponse followup.
    I have focused on the media plan. However, I think it is 
important to understand that this is only one component of our 
outreach and promotion strategy. Advertising can increase 
awareness, but it takes trusted voices to persuade people to 
participate in the Census. I am happy to report that we have 
now over 200,000 partner organizations around the country that 
have volunteered to help us get the word out to their 
constituencies, and I know with the help of this committee and 
other Members of Congress that we will get other voices out 
saying the same message.
    Mr. Chairman, I am aware that some Members of Congress have 
received letters from local media outlets in their districts 
questioning the fairness of the amount of money spent. I can 
honestly say that the program was set up in an objective 
manner, guided by data on what audiences needed given their 
historical behavior. Not all media outlets will receive 
contracts, but I am confident that the messages needed for the 
different audiences are being delivered.
    We acknowledge that no plan is perfect, and we have held 
back money of the total amount to react to response rates as 
they emerge in the last weeks of March and the early weeks of 
April. That held-back money will be targeted through new media 
purchases to the areas that are returning the questionnaire at 
lower than expected rates.
    Thank you for your time today, Mr. Chairman. I look forward 
to your questions.
    [The prepared statement of Dr. Groves follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.008
    
    [GRAPHIC] [TIFF OMITTED] T1800.009
    
    [GRAPHIC] [TIFF OMITTED] T1800.010
    
    [GRAPHIC] [TIFF OMITTED] T1800.011
    
    [GRAPHIC] [TIFF OMITTED] T1800.012
    
    [GRAPHIC] [TIFF OMITTED] T1800.013
    
    [GRAPHIC] [TIFF OMITTED] T1800.014
    
    [GRAPHIC] [TIFF OMITTED] T1800.015
    
    [GRAPHIC] [TIFF OMITTED] T1800.016
    
    Mr. Clay. Thank you, Dr. Groves.
    Mr. Tarakajian, you may proceed with your opening 
statement.

                  STATEMENT OF JEFF TARAKAJIAN

    Mr. Tarakajian. Mr. Chairman, members of the subcommittee, 
the entire Team Census 2010 thanks you for the opportunity to 
be here today and talk to you about the Integrated 
Communications Campaign. Today's topic, the 2010 Census 
Communications Contract: The Media Plan in Hard to Count Areas, 
is our focus for today. Joining me are members of the team who 
are experts on the planning and execution of the media effort 
for key multicultural audiences, including hard-to-count areas. 
Julia Chen from the IW group is here, along with Bob Smith from 
DRAFTFCB.
    As I have stated in previous testimony, the communication 
strategies and the budget allocation decisions that we have 
made have consistently placed greater emphasis on reaching and 
motivating hard-to-count audiences. The budget allocations are 
disproportionately greater to hard-to-count audiences relative 
to their population size, and more emphasis is being placed on 
hard-to-count audiences than in the 2000 census.
    By way of example, 53 percent of the dollars will go toward 
what we call in-culture, in-language advertising, as compared 
with 46 percent in 2000.
    The campaign this time will exist in 11 more languages. 
That is 28 languages versus 17 in 2000. And with a more diverse 
population than ever, the campaign has been very careful to 
ensure that as many linguistically isolated populations as 
possible are covered with in-language communications.
    Each multicultural audience segment that had advertising in 
2000 will have a minimum increase of 35 percent in spending in 
2010 over the 2000 levels.
    Importantly, the campaign reaches out to hard-to-count 
audiences beyond multicultural populations. For example, there 
is a sponsorship with NASCAR and advertising in NASCAR 
programming that reaches the important rural audience, a large 
portion of which is hard to count.
    There will be $6 million spent in online advertising which 
is targeted to single, unattached mobiles, an audience 
identified by the Census Bureau as hard to count.
    The campaign also is more locally driven in 2010 than it 
was in 2000, with 47 percent of the dollars spent on local 
media versus 34 percent in 2000.
    In addition, the national media buys are seen in all local 
markets through local broadcast affiliates and national print 
vehicles that are distributed locally. So that means that every 
market will receive at least 25,000 television ads and over 
6,000 radio ads, and many markets will receive much more as a 
result of the incremental emphasis placed on hard-to-count 
audiences locally.
    An unprecedented outreach has been completed to make 
accessible the opportunity for all media properties to 
participate in the 2010 media buy. Over 2,500 RFPs have been 
issued that cover 61,000 media outlets. We don't know of a 
campaign that has made this kind of outreach in the history of 
our business. Yet we know that media have complained that they 
didn't get business, and we regret that this has happened.
    Media buys today have now been completed for the awareness 
and motivation phases of the campaign. Still to be purchased 
are media for nonresponse followup and, as Dr. Groves said, for 
the deployment of rapid response reserve funds. So there is at 
this point some flexibility remaining to address unforeseen 
events, to fill gaps that stakeholders believe need to be 
filled, and to make any adjustments based on campaign tracking 
results.
    So far those results, as of the middle of February, show 
that awareness of Census advertising is already at 72 percent; 
and that compares very favorably with 27 percent, which was the 
number before ads began. The number is 77 percent for English-
speaking Blacks and 70 percent for English-speaking Hispanics, 
compared to the overall number of 72. And intent to participate 
is also strong at 87 percent overall, 88 percent for Blacks and 
85 percent for Hispanics; and this number continues to increase 
as we look at the numbers going forward.
    I would be happy to answer any questions that you have. 
Thank you.
    [The prepared statement of Mr. Tarakajian follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.017
    
    [GRAPHIC] [TIFF OMITTED] T1800.018
    
    [GRAPHIC] [TIFF OMITTED] T1800.019
    
    [GRAPHIC] [TIFF OMITTED] T1800.020
    
    [GRAPHIC] [TIFF OMITTED] T1800.021
    
    [GRAPHIC] [TIFF OMITTED] T1800.022
    
    [GRAPHIC] [TIFF OMITTED] T1800.023
    
    [GRAPHIC] [TIFF OMITTED] T1800.024
    
    [GRAPHIC] [TIFF OMITTED] T1800.025
    
    [GRAPHIC] [TIFF OMITTED] T1800.026
    
    [GRAPHIC] [TIFF OMITTED] T1800.027
    
    [GRAPHIC] [TIFF OMITTED] T1800.028
    
    [GRAPHIC] [TIFF OMITTED] T1800.029
    
    [GRAPHIC] [TIFF OMITTED] T1800.030
    
    [GRAPHIC] [TIFF OMITTED] T1800.031
    
    [GRAPHIC] [TIFF OMITTED] T1800.032
    
    [GRAPHIC] [TIFF OMITTED] T1800.033
    
    [GRAPHIC] [TIFF OMITTED] T1800.034
    
    [GRAPHIC] [TIFF OMITTED] T1800.035
    
    [GRAPHIC] [TIFF OMITTED] T1800.036
    
    [GRAPHIC] [TIFF OMITTED] T1800.037
    
    [GRAPHIC] [TIFF OMITTED] T1800.038
    
    [GRAPHIC] [TIFF OMITTED] T1800.039
    
    [GRAPHIC] [TIFF OMITTED] T1800.040
    
    [GRAPHIC] [TIFF OMITTED] T1800.041
    
    [GRAPHIC] [TIFF OMITTED] T1800.042
    
    [GRAPHIC] [TIFF OMITTED] T1800.043
    
    [GRAPHIC] [TIFF OMITTED] T1800.044
    
    [GRAPHIC] [TIFF OMITTED] T1800.045
    
    [GRAPHIC] [TIFF OMITTED] T1800.046
    
    [GRAPHIC] [TIFF OMITTED] T1800.047
    
    [GRAPHIC] [TIFF OMITTED] T1800.048
    
    [GRAPHIC] [TIFF OMITTED] T1800.049
    
    [GRAPHIC] [TIFF OMITTED] T1800.050
    
    [GRAPHIC] [TIFF OMITTED] T1800.051
    
    [GRAPHIC] [TIFF OMITTED] T1800.052
    
    [GRAPHIC] [TIFF OMITTED] T1800.053
    
    [GRAPHIC] [TIFF OMITTED] T1800.054
    
    [GRAPHIC] [TIFF OMITTED] T1800.055
    
    [GRAPHIC] [TIFF OMITTED] T1800.056
    
    [GRAPHIC] [TIFF OMITTED] T1800.057
    
    [GRAPHIC] [TIFF OMITTED] T1800.058
    
    [GRAPHIC] [TIFF OMITTED] T1800.059
    
    [GRAPHIC] [TIFF OMITTED] T1800.060
    
    [GRAPHIC] [TIFF OMITTED] T1800.061
    
    [GRAPHIC] [TIFF OMITTED] T1800.062
    
    [GRAPHIC] [TIFF OMITTED] T1800.063
    
    [GRAPHIC] [TIFF OMITTED] T1800.064
    
    [GRAPHIC] [TIFF OMITTED] T1800.065
    
    [GRAPHIC] [TIFF OMITTED] T1800.066
    
    [GRAPHIC] [TIFF OMITTED] T1800.067
    
    [GRAPHIC] [TIFF OMITTED] T1800.068
    
    [GRAPHIC] [TIFF OMITTED] T1800.069
    
    [GRAPHIC] [TIFF OMITTED] T1800.070
    
    [GRAPHIC] [TIFF OMITTED] T1800.071
    
    [GRAPHIC] [TIFF OMITTED] T1800.072
    
    [GRAPHIC] [TIFF OMITTED] T1800.073
    
    [GRAPHIC] [TIFF OMITTED] T1800.074
    
    [GRAPHIC] [TIFF OMITTED] T1800.075
    
    [GRAPHIC] [TIFF OMITTED] T1800.076
    
    [GRAPHIC] [TIFF OMITTED] T1800.077
    
    [GRAPHIC] [TIFF OMITTED] T1800.078
    
    [GRAPHIC] [TIFF OMITTED] T1800.079
    
    [GRAPHIC] [TIFF OMITTED] T1800.080
    
    [GRAPHIC] [TIFF OMITTED] T1800.081
    
    [GRAPHIC] [TIFF OMITTED] T1800.082
    
    [GRAPHIC] [TIFF OMITTED] T1800.083
    
    [GRAPHIC] [TIFF OMITTED] T1800.084
    
    [GRAPHIC] [TIFF OMITTED] T1800.085
    
    [GRAPHIC] [TIFF OMITTED] T1800.086
    
    [GRAPHIC] [TIFF OMITTED] T1800.087
    
    [GRAPHIC] [TIFF OMITTED] T1800.088
    
    [GRAPHIC] [TIFF OMITTED] T1800.089
    
    [GRAPHIC] [TIFF OMITTED] T1800.090
    
    [GRAPHIC] [TIFF OMITTED] T1800.091
    
    [GRAPHIC] [TIFF OMITTED] T1800.092
    
    [GRAPHIC] [TIFF OMITTED] T1800.093
    
    [GRAPHIC] [TIFF OMITTED] T1800.094
    
    [GRAPHIC] [TIFF OMITTED] T1800.095
    
    [GRAPHIC] [TIFF OMITTED] T1800.096
    
    [GRAPHIC] [TIFF OMITTED] T1800.097
    
    [GRAPHIC] [TIFF OMITTED] T1800.098
    
    [GRAPHIC] [TIFF OMITTED] T1800.099
    
    [GRAPHIC] [TIFF OMITTED] T1800.100
    
    [GRAPHIC] [TIFF OMITTED] T1800.101
    
    [GRAPHIC] [TIFF OMITTED] T1800.102
    
    [GRAPHIC] [TIFF OMITTED] T1800.103
    
    [GRAPHIC] [TIFF OMITTED] T1800.104
    
    [GRAPHIC] [TIFF OMITTED] T1800.105
    
    [GRAPHIC] [TIFF OMITTED] T1800.106
    
    [GRAPHIC] [TIFF OMITTED] T1800.107
    
    [GRAPHIC] [TIFF OMITTED] T1800.108
    
    [GRAPHIC] [TIFF OMITTED] T1800.109
    
    [GRAPHIC] [TIFF OMITTED] T1800.110
    
    [GRAPHIC] [TIFF OMITTED] T1800.111
    
    [GRAPHIC] [TIFF OMITTED] T1800.112
    
    [GRAPHIC] [TIFF OMITTED] T1800.113
    
    [GRAPHIC] [TIFF OMITTED] T1800.114
    
    [GRAPHIC] [TIFF OMITTED] T1800.115
    
    [GRAPHIC] [TIFF OMITTED] T1800.116
    
    [GRAPHIC] [TIFF OMITTED] T1800.117
    
    [GRAPHIC] [TIFF OMITTED] T1800.118
    
    [GRAPHIC] [TIFF OMITTED] T1800.119
    
    [GRAPHIC] [TIFF OMITTED] T1800.120
    
    [GRAPHIC] [TIFF OMITTED] T1800.121
    
    [GRAPHIC] [TIFF OMITTED] T1800.122
    
    [GRAPHIC] [TIFF OMITTED] T1800.123
    
    Mr. Clay. Thank you very much, Mr. Tarakajian.
    Mr. Garcia, you may proceed.

                   STATEMENT OF NELSON GARCIA

    Mr. Garcia. Thank you, Mr. Chairman and the committee, for 
inviting me.
    As with all of the other ethnic and racial segments, the 
goal of the Hispanic audience plan was as follows: to improve 
mail response, to improve overall accuracy, to reduce the 
differential undercount, and to improve cooperation with 
enumerators.
    To meet all of these goals required more than just hard-
working media dollars in relevant environments. It required a 
fully integrated campaign and a coordination of multiple 
efforts by partner agencies that included paid media, 
partnerships, public relations, Census in schools, and earned 
media outreach.
    The goal of paid media is to educate all Hispanic Americans 
in all 50 States, regardless of their residency status, as to 
the benefits of civic participation and to drive mass 
participation through the most relevant and influential forms 
of communication.
    The plan used research from a wide variety of sources. 
Qualitative and quantitative learning came from focus groups. 
Demographic, psychographic, and life-style learning taken from 
two Census-sponsored research studies. The first was a base 
segmentation study of the Hispanic population, and the second 
was a mind-set study of Hispanics as it pertains to their 
perceptions of the Census.
    From the first study, we were able to segment the Hispanic 
population to eight distinct target clusters. From the second 
study, we were able to understand media and messaging needs. 
This research was based and complemented with extensive use of 
authoritative secondary sources, which ranged from industry 
studies to the ACS to information from census.gov.
    In the discovery process, it was determined that 42.5 
percent of the Hispanic community fell into hard-to-count 
clusters known as Ethnic Enclaves I and II and Economically 
Disadvantaged II. Another key finding found that 20 percent of 
the Ethnic Enclave clusters were Hispanic. Therefore, these 
three clusters' media habits were further examined and led to 
our recommendation.
    So our recommendation was first based on knowing that 
almost half the marketplace was hard to count and their media 
habits. We used syndicated research sponsored by the Census 
Bureau. These findings, plus the Census mail response rate, 
guided our development of a hybrid plan, one that put a greater 
emphasis on local media. Sixty percent of paid media investment 
will be spent on local, radio, newspaper, out of home, and 
really hyper local media, such as public transit, lunch trucks, 
retail post bills, wire transfer, check cashier locations, 
ethnic restaurant menus, and also prepaid calling cards. There 
is a lot of media which is media used by immigrant communities, 
Spanish-dominant communities, and recently arrived communities.
    To reach the most recently arrived and linguistically 
isolated, the plan is weighed toward trusted in-language 
medium. We have 99 newspaper markets. We have 38 radio markets. 
We have 11 out-of-home markets and 18 local news markets.
    A special effort was made to be in media consumed by 
migrant workers and rural Hispanics. In fact, a special 
purchase was made with the United Farm Workers Radio Network, 
one of the group's most influential and trusted news sources. 
Ninety-seven percent of all DMAs have paid Census Spanish TV 
advertising and PSAs from trusted personalities, since 80 
percent of Univision, Telemundo, TeleFutura, and Tedesteca's 
programming is common to all markets.
    In 18 local markets, an extra layer of support came by way 
of paid purchases on local news and local programings. These 
markets were selected based on the fact that they had critical 
mass, at least 100,000 people; the fact that at least 10 
percent of the population was Hispanic; that their hard-to-
count scores were above the national average; and that the mail 
return rate was below the national average.
    We looked at an 8-year growth rate above the national 
average, and we also looked to hyper-growth markets in the 
Pacific Northwest, the Midwest, and the Southwest; and this 
resulted in a media plan that was very locally oriented.
    It was the most democratic RFP process possible. We sent 
out RFPs to 1,053 individual media companies, which yielded 
close to 21,000 points of contact with the individual Hispanic 
media. We have placed $25.4 million in media so far and have 
yielded $7.5 million back in added value return where 30 
percent were increased because of the generosity of our 
partners. And we involved America's top Hispanic talent, 
everyone from Maria Marin, Piolin, Cristina, Don Francisco, all 
of the key names, all of the people that matter and influence 
this community.
    Thank you.
    [The prepared statement of Mr. Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.124
    
    [GRAPHIC] [TIFF OMITTED] T1800.125
    
    [GRAPHIC] [TIFF OMITTED] T1800.126
    
    [GRAPHIC] [TIFF OMITTED] T1800.127
    
    [GRAPHIC] [TIFF OMITTED] T1800.128
    
    [GRAPHIC] [TIFF OMITTED] T1800.129
    
    [GRAPHIC] [TIFF OMITTED] T1800.130
    
    [GRAPHIC] [TIFF OMITTED] T1800.131
    
    Mr. Clay. Thank you, Mr. Garcia.
    Ms. Ennis, you are recognized for 5 minutes.

                   STATEMENT OF ROBBYN ENNIS

    Ms. Ennis. Mr. Chairman, Members of Congress and Team 
Census 2010, I would like to thank you for the opportunity to 
talk about the 2010 census Integrated Communications Campaign 
specifically as it relates to the paid media and the Black 
audience segment.
    The three key objectives for the Integrated Communications 
Campaign for the Black audience are to increase mail response, 
improve accuracy and reduce the differential undercount, and, 
last, improve cooperation with enumerators. All of these goals 
were targeted to the Black audience segment, which is inclusive 
of African Americans, Caribbean Americans, Haitian Americans, 
and Black Africans. In order to assist in meeting these goals, 
an integrated paid media plan has been developed based on the 
media habits and behaviors of these particular audiences.
    During our media planning process, as well as buying, we 
utilized proprietary research, third-party research as well as 
proprietary research, CBAMS and cluster data, to develop media 
plans. Utilizing Census and industry research, quantitative and 
qualitative data allowed us to develop the most efficient and 
effective media mix against the Black audience segment and 
specifically the hard-to-count audiences within the segment.
    Part of unearthing the data included analysis of what 
clusters and categories the Black audience represented or 
skewed heaviest. We found that one-third of Black households 
fell into Economically Disadvantaged I and II, and they 
comprise nearly half of the households in each of those two 
clusters, 44 percent and 48 percent respectively.
    The third hardest to count cluster was single unmatched 
mobiles, which were 11 percent of Blacks and 16 percent of 
Blacks within that particular cluster.
    After reviewing the media consumption of these three 
clusters, special consideration was made to skew strategies and 
media efforts to those audiences which are typically unlikely 
to respond. The CBAMS research was utilized to provide 
additional media strategy enhancement, particularly with our 
hard-to-count segments.
    One of the key takeaways from the research was that, 
although there was somewhat of an awareness of the Census, the 
belief that it will make a difference in our own communities is 
relatively low. In this case, GlobalHue's recommendation across 
all segments was to skew choices not only toward trusted 
targeted media but to hone in on trusted voices that the 
audience is familiar with, believes, and that will create 
awareness and more willingness to participate.
    Some of the talent secured to reach hard-to-count audiences 
include but are not limited to R&B artist Monica, national 
syndicated radio host Steve Harvey, Michael Baisden, gospel 
artist Yolanda Adams, April Ryan, Marvin Sapp, Ludacris, Ce-Ce 
Winans, Rico DuPont, Joan Savoury, Dikembe Mutombo, and 
Terrence and Rocsi of 106 and Park.
    Research guided all media choices down to the time tactical 
level of the specific media outlets that were used. What 
resulted was a plan that had a greater emphasis on local media. 
Fifty-five percent of the total allocated budget went to local 
media.
    National media support provides the most efficient way to 
reach the masses of Black adults. Targeted efforts were also 
utilized and partners such as BET, TV One, Radio One, and AURN 
provided significant added value in the form of free PSAs, 
mentions, use of talent, media integrations, vignettes, and 
multiple no-charge spots. This coverage has been essential to 
the overall media plan.
    Utilizing local media is a key strategy of the Black 
audience plan and is equally as important as national media. We 
utilized the following information to prioritize local markets: 
population size, historical response data, prevalence of hard-
to-count households within the market, availability of media in 
each market, as well as local media studies and regional 
director and advisory committee feedback. A matrix was created 
and markets were prioritized, which resulted in a total of 31 
markets where we would focus our local dollars and effort. We 
have since extended the market list based on the same criteria 
to support additional markets, now a total of 60 plus, with 
targeted Black media efforts.
    Over 500 RFPs were distributed, representing 22,000 media 
properties. Two minority subcontractors were secured, Voices, 
Inc. and NNPA, to negotiate and place the local targeted media 
buys.
    Once RFPs were distributed, proposals were reviewed based 
on the specific criteria and media selections were made. Some 
criteria included vehicles effectiveness in reaching the target 
audience, reach of the media vehicle, content environments that 
are conducive to the Census message, cost efficiency, minority 
ownership, and added value programs that would enhance the 
campaign's message.
    Overall, this plan was designed to effectively and 
efficiently reach the Black audience segment and specifically 
deliver the hard to count. The messaging will reach 95 percent 
plus Blacks covering every market in the country.
    [The prepared statement of Ms. Ennis follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.132
    
    [GRAPHIC] [TIFF OMITTED] T1800.133
    
    [GRAPHIC] [TIFF OMITTED] T1800.134
    
    [GRAPHIC] [TIFF OMITTED] T1800.135
    
    [GRAPHIC] [TIFF OMITTED] T1800.136
    
    [GRAPHIC] [TIFF OMITTED] T1800.137
    
    [GRAPHIC] [TIFF OMITTED] T1800.138
    
    [GRAPHIC] [TIFF OMITTED] T1800.139
    
    Mr. Clay. Thank you so much for all of your testimony.
    We will digress from the normal questioning order, and I 
will recognize Representative Waters to start us off.
    Representative Waters, 5 minutes.
    Ms. Waters. Thank you very much.
    There are a number of questions that I have, Mr. Chairman, 
but, first of all, let me ask, in dealing with the Black media, 
Black newspapers, and the references that you have made to 
public service announcements and basically free media, has 
there been some attempt to say to Black newspapers, for 
example, that we will spend X amount of dollars with you based 
on how much free space you give us? Has there been a demand to 
say you've got to run X number of items for us in order for you 
to get us to pay you for a certain amount of advertising? Did 
this or did this not happen?
    Ms. Ennis, do you want to respond to that?
    Ms. Ennis. I can definitely respond to that.
    Per the written recommendation of the NNPA----
    Mr. Clay. I will have to ask the audience to not interfere 
with the testimony or the questioning. Please observe the 
decorum of the committee. If you are a witness, you will have 
an opportunity to respond. Thank you.
    Ms. Ennis. Let me start over.
    Per the written recommendation of the NNPA, the papers were 
asked to volunteer to include or write any positive articles or 
editorial about the census 2010 as an added value submission. 
Any papers that did not want to take part in submitting or 
writing articles or submitting editorials were asked to provide 
another alternative of added value to our agency.
    Because of the importance of the Census to each of our 
communities, we were told that would potentially be an easy 
task. We have received other added value requests from the 
papers that did not agree to that particular term, and we are 
completely fine with that.
    Ms. Waters. Was this asked of White papers? Were White 
papers asked for this added value as an exchange for getting 
paid advertisement?
    Ms. Ennis. The added value is not asked as an exchange for 
paid advertising.
    Ms. Waters. Was it asked of the White newspapers at all?
    Mr. Tarakajian. May I answer that?
    Ms. Waters. Sure. She gave us a specific answer to how this 
came about asking for free media, and I want to know what the 
connection is to paid media and how was it presented. And it 
was presented to Black newspapers, wherever the recommendation 
came from. Was it presented to any other newspapers, White 
newspapers, or just minority newspapers, Latino, Black, what 
have you?
    Mr. Tarakajian. The request for added value is a very 
standard way of operating.
    Ms. Waters. But I didn't ask about standard. I asked what 
did you do. I want to know what the Census did, what the Census 
project did. Of course, it may be a standard way of doing 
business, but I want to know what did Team Census 2010 do? Did 
you do this for all newspapers?
    Mr. Tarakajian. For the Census contract----
    Ms. Waters. Don't nuance it for me. You either did it or 
you didn't. Did you do it?
    Mr. Tarakajian. For the Census contract, we asked for 
additional added value for all of the media buys that we make. 
It is not a condition of running media. It is, as I said----
    Ms. Waters. Was this done in writing or was this a verbal 
request?
    Mr. Tarakajian. Under oath, I can't tell you 100 percent 
what was done in writing and what was done verbally.
    Ms. Waters. Under oath, you probably can't tell me whether 
it was done at all.
    Mr. Tarakajian. No, I can tell you that the request for 
added value----
    Ms. Waters. Who did the request and how was it done? Ask 
one of your people with you. Somebody must know.
    Mr. Tarakajian. When we do our media buys and specifically 
as it relates to newspapers, which is your question, we, like 
Ms. Ennis is talking about, work with a rep firm who would 
represent a variety of different newspapers. Many of the rep 
firms will recommend ideas for added value. Again, those are 
ideas that they put on the table. We seek them. We encourage 
them. But we do not make the requirement that somebody provide 
added value to literally qualify for a media buy.
    Ms. Waters. OK, we are going to dispense with this because 
I think you just told me what I wanted to know.
    First of all, your reps are the ones who are the ones who 
are negotiating this added value, and you don't really know 
what they are saying. You don't have any way of knowing whether 
or not they are saying this is in exchange for paid media. You 
would hope that they are not doing that, but you don't know 
whether or not they are doing it because you are not doing it 
yourself. Your reps are doing it, correct?
    Ms. Ennis. If it is all right if I answer that question, 
what happens is we work directly with our subcontractors and 
reps. So we approve all paperwork.
    Ms. Waters. This is in writing? You have this request in 
writing, the added value?
    Ms. Ennis. Yes.
    Ms. Waters. Mr. Chairman, may I ask that it be submitted to 
your subcommittee, to you, so we can examine exactly what was 
placed in writing?
    And, Mr. Chairman, will you have them indicate who all this 
request was made of? Was it made of only minority newspapers, 
all newspapers, minority radio stations, minority television 
stations, all radio stations, all television stations, etc? OK?
    Mr. Clay. You have heard the request, and I am sure you 
will submit it to this committee with all due speed.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.140
    
    [GRAPHIC] [TIFF OMITTED] T1800.141
    
    [GRAPHIC] [TIFF OMITTED] T1800.142
    
    [GRAPHIC] [TIFF OMITTED] T1800.143
    
    [GRAPHIC] [TIFF OMITTED] T1800.144
    
    Ms. Waters. Thank you very much, Mr. Chairman. I yield back 
the balance of my time.
    Mr. Clay. I yield to Mr. Chaffetz.
    Mr. Chaffetz. Thank you all for your testimony. I do have a 
series of questions.
    Let me understand the macro number, the overall advertising 
budget is--what is the number for the advertising budget?
    Mr. Tarakajian. For paid media, $130 million.
    Mr. Chaffetz. Diving into the specifics of how that is 
divvied up, my understanding, based on something that I pulled 
off the Web site, is that TV is roughly 52 percent of that 
budget. I'm looking at this document that I have pulled off 
here, draft, and it has these little pie charts, understanding 
of the types of media that was run.
    Mr. Tarakajian. Right.
    Mr. Chaffetz. As a general number--I'm not going to hold 
you to the exact percentage--but roughly half is television?
    Mr. Tarakajian. That's correct.
    Mr. Chaffetz. Are you happy with what has happened on 
television? I mean, most of the articles that I saw pans what 
happened on the Super Bowl ad. Are you happy with that and the 
Olympic buy? My understanding is that for the Super Bowl, you 
spent $2.5 million buying that ad time, and Olympics is $5.1 
million. Does that sound accurate in terms of the dollars 
spent?
    Mr. Tarakajian. The Super Bowl number of $2.5 million is 
accurate. I don't have the Olympics number in front of me, but 
that sounds about accurate.
    Mr. Chaffetz. Are you happy with the ad?
    Mr. Tarakajian. We are happy with the fact that we 
projected an audience that would come out of the Super Bowl ad, 
the Super Bowl advertising participation.
    As I think you are aware, this was the most watched Super 
Bowl ever. Those estimates were exceeded. We have now awareness 
of the advertising that is, as I said in my testimony earlier, 
that is extremely high for where we are at this stage of the 
campaign. It is not just awareness, but the favorability, the 
willingness to participate and intent to participate is also 
very high.
    So we put the two things together, and our view is that 
awareness and a favorable attitude toward the Census and high 
intent to participate means that we are setting ourselves up to 
achieve a strong motivation period.
    Mr. Chaffetz. Who owns DRAFTFCB?
    Mr. Tarakajian. The interpublic group of companies.
    Mr. Chaffetz. How do you do the actual media buying? Who is 
doing the media buying and what percentage are they taking off 
to actually execute the media buy?
    Mr. Tarakajian. The specific media buy that you are talking 
about, which is for the diverse mass audience, was done by a 
company called Pengood, who is a subcontractor that we brought 
on board who is a small, disadvantaged business that did the 
buying on our behalf.
    Mr. Chaffetz. What percentage did they take of the media 
buy? You make a million dollar media buy. What percentage do 
they take?
    Mr. Tarakajian. In this contract, there is no pass through 
on media. So there is no percentage.
    Mr. Chaffetz. You just paid a flat fee?
    Mr. Tarakajian. There is a labor fee connected with all of 
the labor buys, but there is not a percentage on the media buy.
    Mr. Chaffetz. Moving forward, I would appreciate 
understanding the details of that.
    Specifically, I would like to understand the online 
campaign. One of the more effective ways to communicate with 
the public is the online communication. My understanding from 
what we were able to pull off the Web site is that roughly 7 
percent of your budget was to be allocated in terms by media 
type online.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.145
    
    Mr. Tarakajian. In the mass--diverse mass portion of the 
media plan, it is roughly 10 percent of it, or $6 million is 
being spent online.
    For some of the other audiences----
    Mr. Chaffetz. How is that going so far?
    Mr. Tarakajian. To the best of my knowledge, it is going 
very well so far.
    Mr. Chaffetz. Well, my understanding, looking at the 
numbers here, if you go to Facebook, look how many followers 
they have. There are roughly 8,500. You go to YouTube, 64 
uploads. Most views per video is less than 8,000. On Twitter, 
you have about 2,400 followers.
    Now these are some of the biggest, most mainstream pieces 
of media that are out there in terms of online. Facebook, 
YouTube, and Twitter have pretty much become household names. 
All told, you are getting a few thousand type of hits in 
response. How can you spend millions and have 2,400 people on 
Twitter? I don't spend anything, and I have 8,000 to 9,000 
people on Twitter, for goodness sake. How do you justify 
millions of dollars going out the door and so few people 
participating in the program?
    Mr. Tarakajian. First of all, what you are talking about 
and what I am talking about in terms of the online media buy 
are two different things. The 10 percent of the mass 
communications base plan online media buy are all of the paid 
media banner ads that are part of this campaign. Those are 
separate and apart from what you're talking about, which are 
seeding commercials online and social media and so forth, which 
is a totally different piece of this.
    Mr. Chaffetz. Mr. Chairman, I know my time is up. I do have 
other questions for other panelists. I know we will have to do 
a couple of rounds here.
    It talks in the plan about the need to have a viral 
component and to get this out there en masse. I see it as a 
complete and utter failure, but I would like to learn more 
information.
    Mr. Clay. Mr. Chaffetz, would you have any requests for 
documentation?
    Mr. Chaffetz. Yes. Again, if there are more details about 
what you are trying to execute, how you are trying to execute, 
and where you think you are seeing success, it is a mystery to 
me. I am sincerely wanting to understand it. If you think my 
numbers are wrong or there is a big component that we are not 
seeing, share it with me, please, sooner rather than later.
    Mr. Clay. Thank you.
    Mr. Cuellar, you are recognized for 5 minutes.
    Mr. Cuellar. Mr. Chairman, sorry, I was doing some 
addition.
    First of all, Dr. Groves, it is good seeing you again. 
Thank you very much for going down to Laredo and visiting the 
colonias, the hard to get, hard-to-count places. Thank you very 
much.
    For the other folks, I want to ask you a little bit about 
the budget. I have a contract budget that you all had prepared 
back in March 26, 2009. Now I am looking at a revised budget of 
February 4, 2010. I want to look at a couple of numbers.
    The total media buy at that time back in March of last year 
was $145 million, and now it has been reduced to $133 million. 
When you look at the local buys, at that time I believe you had 
$82 million, and now it has been reduced to $56 million. When 
you look at the Hispanic buys back at that time, you had $27 
million plus for Hispanic buys, and now it is reduced down to 
$25.4 million. When you look at the African Americans, the 
Black, at that time you had $24.5 million. Now it is $22.9 
million. So you have another reduction.
    When you look at production--and this is part of the paid 
media total budget--media production went from production, 
which includes talent, dubbing, and GPO--I guess Government 
Printing Office--that one went up on production from $28 
million to $36.6 million. So production went up. When you look 
at production, labor, and other--and other includes travel, 
research, and management reserve, and I will talk about that--
when you add all of those up, I get about $118 million for 
production, labor, and other. And then total advertising is 
about $133 million.
    So you almost have--the money that we are spending for 
advertising, it is almost what we are spending for production 
and costs and all that, almost matches what we are spending for 
media. Why are we spending so much money on production, on 
labor, on talent? If you can't get somebody to volunteer for 
talent, I think we have a problem.
    It is the same question that was asked by my colleague on 
Twitter. You are spending millions of dollars on all this. I 
just don't understand. Why are we spending so much on 
production and labor?
    Mr. Tarakajian. You have to look at this in terms of the 
total budget of this campaign, all the activities support. 
Because the paid media part of this campaign at $133 million is 
one piece of it, but it is not the whole piece. There is the 
Census in Schools program, and there is labor connected with 
that and production connected with that. There is all of the 
partnership materials that have been produced.
    Mr. Cuellar. OK, let's go back on talent. How much money 
did you pay for talent?
    Mr. Tarakajian. I don't have a total.
    Mr. Cuellar. $5 million? $10 million? $20 million? I assume 
you got an actor. How much did we pay for talent or dubbing? 
Dubbing means you reproduce. You get a copy and you reproduce 
that. How much did you spend for talent, dubbing, and shipping?
    Mr. Tarakajian. I would have to get back to you on exactly 
what those figures are for each one.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.146
    
    [GRAPHIC] [TIFF OMITTED] T1800.147
    
    [GRAPHIC] [TIFF OMITTED] T1800.148
    
    [GRAPHIC] [TIFF OMITTED] T1800.149
    
    [GRAPHIC] [TIFF OMITTED] T1800.150
    
    Mr. Cuellar. You have all of those folks behind you. I am 
sure somebody knows how much money was spent on talent, 
dubbing, and shipping.
    What I am trying to say, Dr. Groves, as I mentioned the 
last time we met with the chairman, why can't we use some of 
that money and put it on the local buys? I have mentioned I 
have four out of the top 50 counties that are hard to count. 
Why can't we use some of that and spend it on some of the 
advertising for hard-to-count areas? Why reduce the Black 
purchases and why reduce the Hispanic purchases? And I'm sure 
if I go down on the other ones we probably would have 
reductions, but why increase production which includes talent 
and dubbing?
    Mr. Tarakajian. Your question is a fair question. Every 
time a commercial runs, there is a talent usage fee in 
connection to that commercial. And so, therefore, that is one 
of the reasons why.
    Mr. Cuellar. What percentage is it? In other words, when I 
do a campaign and I run something, it is usually 15 percent 
unless you work out a better deal and it is less than 15, and 
we can do that. Did we negotiate this to get a better deal 
instead of paying millions of dollars on copying and talent?
    Mr. Tarakajian. It all depends on the commercial, and it 
depends on the number of on-camera talents who are in the 
commercial.
    Mr. Cuellar. Give me some of your talent who you spend $36 
million on, part of that.
    Mr. Tarakajian. For example, there is a commercial for 
Diverse Mass that ran on the Olympics called Frank that has a 
number of different on-camera talents in that commercial.
    There is a commercial that my colleague at GlobalHue has 
called Silent Chant which is about to begin running that also 
has multiple on-camera talents in that commercial.
    And people you know get a fee to perform, and that's all 
unionized.
    Mr. Cuellar. So they get a fee.
    And I'm sorry, Mr. Chairman. My time is over. But if you 
can give me a courtesy just to finish my thought.
    So you're saying that you pay somebody a talent fee, and 
that every time they run, they get a royalty, if I can use that 
term.
    Mr. Tarakajian. Yes.
    Mr. Cuellar. Wow.
    Mr. Tarakajian. That is the way the union is set up, and 
that is the way----
    Mr. Cuellar. Couldn't you use some, excuse my language, 
ordinary folks, you know, folks to do some of the commercials 
that can reach out to them, and I see some shaking their heads, 
for example, local buys? If you go and talk to somebody in 
south Texas, they probably trust somebody who has been on their 
TV channel for 10 or 15 years than have somebody that you're 
paying a fee and a commercial on that.
    And again, I know my time is over but my thing is, Mr. 
Chairman, I want to maximize the dollars here. And if we can 
squeeze that. It might be too late already. But I mean, I was 
hoping we would spend a little bit more money, and we've talked 
about this.
    What is the reserve management left over, Dr. Groves?
    Dr. Groves. The shavings of the amounts that you went 
through group by group assembled about $7.5 million, $8 
million.
    Mr. Cuellar. So that hasn't been reduced. So it's still 
about $7.5 million.
    Dr. Groves. Yes.
    Mr. Cuellar. Thank you, Mr. Chairman. Thank you, Dr. 
Groves.
    Mr. Clay. Thank you, Mr. Cuellar.
    And I now recognize the gentlewoman from Texas who has also 
joined us. Welcome to the subcommittee.
    Ms. Jackson Lee. Mr. Chairman, let me thank you for your 
courtesies. For you to have this hearing at this hour connotes, 
equals, confirms the crucialness of where we are and the 
posture that we find ourselves in. My name tag is not here, so 
he's indicated that I am from Texas and also from Harris 
County.
    Let me have the backdrop of my colleague, Congressman 
Cuellar, in terms of his inquiry of the cost, but let me offer 
this on the record. My district, which lies in Harris County, 
is a county, Harris County, ranked fourth of the 50 U.S. 
counties with the highest number of people living in hard-to-
count areas. In fact, 80.5 percent of the population in Harris 
County live in hard-to-count areas. Even more astonishing, 
Harris County, TX, is one of eight counties estimated to lose 
over $100 million each in Federal funds from undercounting the 
2000 census. The undercount of 2000 caused Harris County, TX, 
to lose a total, including State funds, of $234 million.
    Now, we juxtapose that against of course the labor cost and 
production cost on taxpayers dollars for trying to count 
people, and I'm not sure what the impact would have. In 
addition, as it may have occurred in a number of other 
communities, at the early point of the Census coming out there 
was a big uproar over the utilization of the word Negro. A 
simple courtesy, which I may have missed, to Members of 
Congress that this was going to occur, since we had not seen 
the early document might have been helpful, but I had to 
encounter rallies and town hall meetings on the insult of the 
word Negro.
    I've obviously come to believe that the count is of crucial 
importance, and we work with our county and work with 
individuals in the county and work with those who might have 
been offended from the African American community to try to 
overcome the utilization of that word, which I have reason to 
believe, there are many very competent reasons for that word.
    I lay all that forward to raise these questions, and I'll 
try to be as quick as I can.
    Dr. Groves, as you well know, I had a conversation with you 
and I would like to invite you as you go into the valley to 
come to Houston as soon as possible, and I would like that to 
be within the next 10 days or so, and I would like to look at 
your schedule. And I say that because you're talking about a 
city that has a potential of a great loss but also the 
potential to count down or count up to the third largest city 
in the Nation. That's a big vote for America.
    And I would venture to say that this may be the poster 
child for disorganization, not lack of good will people, but 
disorganization. You have a circumstance where people have been 
enrolled and allegedly signed up and no word coming back on any 
status that they have. Second, you have the representation by 
those who are there saying, we cannot get individuals from the 
minority community, how can you help us, and then not seeking 
the help. Not going into the mass numbers of churches who will 
open their doors, and they can actually put their sites of 
sign-up right in the place of the doors there in the physical 
plan of the church building or another building that's a 
501(c)(3). Many of these buildings, churches have community 
centers and others that are 501(c)(3). So that's the first 
thing. Let me go directly to this question.
    Let me try to find out, Dr. Groves, you're newly appointed 
and let me congratulate you, but let me try to find out, when 
were these contracts let for Draft CBC, DraftFCB and GlobalHue? 
When were these contracts rendered?
    Mr. Tarakajian. Yes. The contracts were awarded in 
September 2007.
    Ms. Jackson Lee. So they were awarded under the last 
administration, which is unfortunate.
    Mr. Tarakajian. That's correct.
    Ms. Jackson Lee. And then the GlobalHue is, what? Is that a 
subcontractor?
    Mr. Tarakajian. GlobalHue is a subcontractor to DraftFCB.
    Ms. Jackson Lee. Is that the only subcontractor?
    Mr. Tarakajian. No, there are other subcontractors who are 
part of the contract. The IW Group, GlobalHue Latino, 
D'Esposito Partners, to name a few. Most of them are 
multicultural agencies specializing in----
    Ms. Jackson Lee. And how were they chosen?
    Mr. Tarakajian. They were chosen by DraftFCB prior to award 
and reviewed by the Census in making that award.
    Ms. Jackson Lee. Will the chairman indulge me? My red light 
went on. I'm just trying to follow a line of questioning.
    Mr. Clay. Sure. You can finish up, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me, first of all, make the official 
request.
    Dr. Groves, can I have a confirmation that you'll work with 
your schedule?
    Dr. Groves. I would be happy to be with you in Houston as 
soon as I can.
    Ms. Jackson Lee. Thank you.
    And I know that we will work through that.
    Mr. Tarakajian, is it?
    Mr. Tarakajian. Tarakajian.
    Ms. Jackson Lee. Excuse me, I'm sorry, Tarakajian, excuse 
me. Let me make the request for the whole list of 
subcontractors that you have. And I understand that was through 
the private sector. So you were selected, and then you selected 
GlobalHue?
    Mr. Tarakajian. Actually what happened is we selected a 
team that we went through the pitch process with, with all the 
various stages.
    Ms. Jackson Lee. So you went in, and then you got selected.
    Mr. Tarakajian. Correct.
    Ms. Jackson Lee. Were there others that came on board after 
the fact?
    Mr. Tarakajian. There's a core group of subcontractors who 
have been with us from the very beginning.
    Ms. Jackson Lee. Right. That's the team.
    Mr. Tarakajian. And then there are other subcontractors 
who, for example, when I talked about Pengood a little while 
ago as the media buyer, there were other awards of 
subcontractors that were made along the way for various 
purposes.
    Ms. Jackson Lee. Well, maybe there will be a second round. 
Let me just ask for the full complement of contractors, 
subcontractors and subcontractors and by region please. I 
assume their address will tell me by region.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.151
    
    [GRAPHIC] [TIFF OMITTED] T1800.152
    
    [GRAPHIC] [TIFF OMITTED] T1800.153
    
    [GRAPHIC] [TIFF OMITTED] T1800.154
    
    [GRAPHIC] [TIFF OMITTED] T1800.155
    
    [GRAPHIC] [TIFF OMITTED] T1800.156
    
    Ms. Jackson Lee. Then let me also put on the record that 
you all are very hard to reach, and no response comes back. I'm 
not going to say that I tried to reach out to GlobalHue, Mr. 
Garcia, Ms. Ennis, because I think I got frustrated early on.
    But the selection process that you use for minority buys is 
unacceptable. And I understand that the first amount of money 
was $2.5 million, is that correct? I'm sorry for the Black 
print media, $2.5 million? Or was it for a total of media, 
Hispanic and African American, Ms. Ennis?
    Ms. Ennis. Are you asking what the total budget is now?
    Ms. Jackson Lee. No. What was it before?
    Ms. Ennis. It was $1.7 million.
    Ms. Jackson Lee. It was $1.7. What is it now?
    Ms. Ennis. And it's $2.5 million now.
    Ms. Jackson Lee. So that's unacceptable as well.
    Mr. Clay. Representative, we will have a second round. I'll 
allow you to do that.
    Ms. Jackson Lee. All right. And I will finish on this. I 
want to put on the record the Houston Sun that was a missing 
element when all the other papers came out, and then I will 
yield back, Mr. Chairman.
    [The prepared statement of Hon. Sheila Jackson Lee 
follows:]

[GRAPHIC] [TIFF OMITTED] T1800.157

[GRAPHIC] [TIFF OMITTED] T1800.158

[GRAPHIC] [TIFF OMITTED] T1800.159

[GRAPHIC] [TIFF OMITTED] T1800.160

    Mr. Clay. Thank you so much, and you will get a second 
round.
    Let me say that I'm very concerned about reports that I 
have received from local elected officials who have conveyed to 
me that they are not hearing the confidentiality message in the 
paid media campaign. In other words, certain constituent groups 
are concerned about information that they give to the Census on 
these forms on the questionnaire.
    In terms of special outreach to these groups, I see the 
Census advertising has failed to adequately address these 
concerns about confidentiality among hard-to-count groups. Will 
you take steps to correct this problem, and could supplemental 
media be created to specifically close this confidentiality 
gap? I'll let anyone try to answer that.
    Mr. Tarakajian. That is probably best answered by a number 
of us because it varies by audience, quite honestly. The simple 
answer to your question, though, is that there are different 
creative messaging executions that we have that, to varying 
degrees, have the confidentiality message in it. And it varies 
by audience where, for example, we found that among the 
Hispanic audience it's a very important issue; a less important 
issue across the diverse mass audience. And the messaging that 
we have reflects that difference depending upon the specific 
audience.
    Mr. Clay. Well, but that may be where you might not have 
all of the information you need about those audiences because 
I'm hearing it in my district, and I'm hearing it from a 
predominantly African American audience over maybe legal 
concerns, maybe the number of people who live in a certain 
house that's contrary to codes, to building codes and 
occupation codes. I mean, so as these things crop up, 
hopefully, you will have some type of strategy that effectively 
addresses it.
    Yes, Dr. Groves.
    Dr. Groves. We're tracking through sample surveys daily 
multiple methods of tracking the knowledge of the public about 
these various components. Confidentiality is one. Another is, 
do people know that this is a 10-minute questionnaire, and do 
they know, do they link the Census to the return of taxpayer 
money, the $400 billion a year? We're tracking this by 
subgroup. And when we're seeing groups reacting to a particular 
message inadequately, then there's a chance to intervene.
    So let me give you an example of this. To our surprise, to 
my surprise anyway, the message that's getting out least well 
right now is that this is a short questionnaire and it only 
takes 10 minutes. And we have to do something about that 
because that's a very good story. So we're trying to measure it 
and then react to it as much as we can.
    Mr. Clay. As far as tracking, how will the Census Bureau 
know if the Integrated Communications Campaign increased the 
mail response rate? And to what extent will the Bureau 
calculate the return on its investment in advertising?
    Dr. Groves. I love this question because, in my ideal 
world, we wouldn't advertise because everyone would know the 
Census is coming. And so it was a question on my mind when I 
entered this position. There is for the first time an 
experiment, an examination of this built into the Census 
advertising where there are a set of media markets where the 
advertising levels are going to be systematically varied and 
will study the impact of that variability. So I think, for the 
first time, at the end of this, we'll have better data for 
every dollar we spend on advertising what was the impact on 
change between 2000 and 2010.
    Mr. Clay. How will the Bureau use the realtime information 
it is collecting, such as Gallup data and early mail response 
data, to respond to challenges, such as unexpected regional 
disparities in mail response rates? And what are the targeted 
response rates that trigger new advertising spending in 
geographic areas?
    Dr. Groves. This is something that I hope everyone watches. 
So starting about the third week of March, the proportion of 
houses that are returning the questionnaire will be published 
daily at a track level. You'll be able to go to our Web site, 
type in your zip code and see how your zip code is doing, how 
tracks in your zip code are doing. If you want to compare St. 
Louis to Kansas City on the return rate, you'll be able to do 
this.
    We hope that local officials and our partners throughout 
the country are watching this in addition to us, and we are 
proposing to intervene both with the money we've held back on 
advertising for those areas that are doing less well than we 
anticipated despite everything we did. We're studying this 
process. We have a team of people trying to predict what's 
going to happen, and we're forecasting it and will do 
interventions both on paid media, and then also we'll get the 
word out to our partners to help us in this area, this 
neighborhood isn't doing as well as we--this is going to be a 
first time for this. It will be very interesting. I'm very 
hopeful about it.
    Mr. Clay. I'm very curious about it, so thank you for that 
response.
    Mr. Chaffetz, you're recognized.
    Mr. Chaffetz. Thank you.
    I want to followup, Director Groves, on something you 
talked about. One of the concerns that you just mentioned in 
your testimony was the idea that we are requiring the short 
form as opposed to a long form. I think one of the reasons that 
we have that concern so rampant in the marketplace is that 
these American community surveys are being sent out which are 
very comprehensive. Don't you think this adds to the confusion? 
I mean, at the same time we're running Super Bowl ads and doing 
those types of things, people are getting these in the mail. 
Why--and then you expect somebody, you know, the following 
month or two to go back and fill out another form. Why are we 
doing this at the same time?
    Dr. Groves. The American Community Survey was passed by 
Congress as a way to separate the long form from the short 
form. So, in essence, the content of that questionnaire you 
just held up is quite similar to the original long form. Every 
question in that questionnaire----
    Mr. Chaffetz. And on the envelope it says ``U.S. Census 
Bureau.''
    Dr. Groves [continuing]. Is specified by some law passed by 
Congress that there must be information on that item in order 
to implement a program that Congress has passed, so that's the 
reason for that questionnaire.
    The confusion you speak to is something I worry about. I 
was concerned about that when I entered office. We have alerted 
the folks who are falling in the sample of the American 
Community Survey about the fact that this is not the decennial 
census and they will get another Census form. We're watching 
right now the response rates on the American Community Survey 
to see if there is confusion among--if they're performing 
differently.
    Mr. Chaffetz. Our time is short. I think naturally given 
that these forms are arriving so similar in their time is 
terribly confusing. I had a town hall meeting just in the last 
2 weeks. A person came up and handed this, didn't understand. 
And again, for another discussion, I think it's a very invasive 
questionnaire. I mean, one of the questions on the 
questionnaire is literally, ``does this person have difficulty 
dressing or bathing?'' And I got to tell you, I--again, 
separate hearing, Mr. Chairman, but I think we need to go back 
and better understand the need of this. It's 11 pages for the 
first person just to get through. It says it's coming from the 
Census Bureau at the same time we're trying to get people to 
fill out the other forms.
    And the other thing is we talk about groups that are 
difficult to get to. One of the questions right here at the 
beginning after you kind of get past your pages of housing is, 
literally, the third question asked them if they are a citizen. 
And so we have people that are afraid of filling out these 
forms because you're going to be asked detailed questions; is 
this person a citizen of the United States?
    I think this is terribly confusing in terms of its timing 
and whatnot, and we will have to continue to go back. I don't 
understand what constitutional role this plays or the authority 
that it meets, but I understand that there are laws on the 
books, and we'll have to address those.
    My understanding is that the Bureau has overspent its $356 
million address canvassing budget by $88 million, roughly a 25 
percent cost overrun. What is your best projection today as to 
where you're going to be in terms of your overall budget, given 
everything else that's going on?
    Dr. Groves. I testified on that overrun twice in front of 
this committee, as you may recall, Congressman.
    Mr. Chaffetz. Just hoping for an update, just a quick 
sentence or two.
    Dr. Groves. I am optimistic, based on the rebudgeting of 
the operations going forward that we just completed and that we 
have sufficient money for the 2010 census, all the further 
operations. Every operation we've done since that event has 
been on time and either on budget or under budget.
    Mr. Chaffetz. The Washington Post, it was cited in the 
Washington Post, the GAO warned that, in a Senate subcommittee 
hearing recently, that the Bureau's computer software that 
handles personnel and payroll systems as well as processes the 
proper paper questionnaires, ``has not yet demonstrated an 
ability to function at the necessary capacity later this 
year.'' Can you give us the most recent update on that?
    Dr. Groves. That is a true statement. When I testified in 
front of this committee last time, I noted that this was the 
highest-risk software development that we were involved in. It 
continues to be a high-risk development. We have--I brought in 
a team that's an external and independent assessment group, and 
we are literally meeting daily on this issue right now.
    Mr. Chaffetz. When you say ``risk,'' can you give us some--
you say ``high risk.'' I mean, how worried should we be about 
this?
    Dr. Groves. If I could finish, I could address your 
concerns I think. The software is being released in three 
components.
    The first component is released and is in production. The 
production performance of it is less than desirable but 
adequate for the operations. We're ramping up operations, so 
right now, we're having low-level operations. It's fitting 
production needs now.
    The second release just occurred last Friday. It will start 
production--well, it started production the last few days.
    The big production component will be released at the end of 
March for the nonresponse followup stage. That's what we're 
really focusing on. We have a team together that is making the 
kind of tradeoff decisions you need to make in a large software 
development with a fixed deadline. And that is, some of the 
functions that were desired for computer assistance will be, 
will have workarounds that will be manual in nature.
    When I do my visits around the country to our regional 
offices it gives me some comfort that they're ready to do those 
in a manual mode because all past Censuses did those manually, 
that was a step up and will pull off those things. So we're 
focusing on the identification of the core functions that allow 
us to do a successful Census. That's where we are right now.
    Mr. Chaffetz. Thank you.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you Mr. Chaffetz.
    And now we will recognize Ms. Waters for a second round.
    Ms. Waters. Thank you very much, Mr. Chairman, for the 
opportunity to do this second round. I need to understand the 
organization of the media companies that are involved in this 
campaign. Now, you are DraftFCB, is that right?
    Mr. Tarakajian. That's correct.
    Ms. Waters. OK. And you are the media company that's 
coordinating all of the media buys and production, etc?
    Mr. Tarakajian. We are the prime contractor, meaning that 
we have some specific responsibilities that are ours which are 
overall coordination of the campaign elements. And then we have 
a whole host of subcontractors who work for us who bring 
certain expertise to the table, such as expertise on the Black 
audience or expertise in the Hispanic audience.
    Ms. Waters. That's OK. You don't have to tell me what they 
do. I just want the structure. You're the prime contractor.
    Mr. Tarakajian. Yes.
    Ms. Waters. How many subcontractors do you have?
    Mr. Tarakajian. There are, in addition to us, there are, I 
believe it's 12 additional subcontractors.
    Ms. Waters. Twelve additional subcontractors now?
    Mr. Tarakajian. Yes.
    Ms. Waters. Were these subcontractors hired through an RFP 
process?
    Mr. Tarakajian. These subcontractors were hired originally 
as part of our team process for pitching the Census.
    Ms. Waters. Just tell me, were they RFP, or were they just 
selected or appointed or however?
    Mr. Tarakajian. Well, we went through an RFP process.
    Ms. Waters. So you selected these 12 additional contractors 
through an RFP process, is that correct?
    Mr. Tarakajian. The RFP process that we went through was 
with the Census to get the contract, if that's what you mean by 
an RFP process.
    Ms. Waters. No. Let me tell you what I mean. You hired 12 
additional contractors, is that right?
    Mr. Tarakajian. We brought--we had a team of subcontractors 
who have worked with us from the beginning. And they were all 
part of the original contract and RFP process that we went 
through with the Census Bureau.
    Ms. Waters. You have 12 contractors?
    Mr. Tarakajian. Correct.
    Ms. Waters. How were they hired? How did you get these 12 
contractors? You said some were with you from the beginning. I 
don't know what that means.
    Mr. Tarakajian. OK. There are two processes that were at 
work here. We selected partners to work with us as 
subcontractors.
    Ms. Waters. How many partners did you select as 
subcontractors that did not go through an RFP process?
    Mr. Tarakajian. There were no subcontractors that we 
selected that were not part of an RFP process.
    Ms. Waters. OK. So, in the beginning, you selected 
contractors; that's what you said.
    Mr. Tarakajian. That's correct.
    Ms. Waters. How did you select them? What process did you 
use?
    Mr. Tarakajian. And we all together went through an RFP 
process to be awarded this contract.
    Ms. Waters. So the 12--so, in the beginning, the 
contractors that you selected went through an RFP process.
    Mr. Tarakajian. That's correct.
    Ms. Waters. Why couldn't you just say that? RFP process, 
OK.
    Mr. Tarakajian. Because I'm trying to make the distinction 
between what----
    Ms. Waters. How many were selected through the RFP process 
in what you call the beginning?
    Mr. Tarakajian. They were all part of the RFP process that 
we went through, along with our subcontractors.
    Ms. Waters. All 12?
    Mr. Tarakajian. Yes, along with our subcontractors.
    Ms. Waters. OK. Are these independent contractors, or are 
these contractors subcontractors to you or the company that you 
subcontract to?
    Mr. Tarakajian. No, they are subcontractors to us.
    Ms. Waters. To you.
    Mr. Tarakajian. Correct.
    Ms. Waters. So these are not independent contractors; these 
are people who work for you.
    Mr. Tarakajian. Yes.
    Ms. Waters. So you did an RFP process for people who work 
for you.
    Mr. Tarakajian. We did an--we were, along with all of those 
subcontractors that I'm just talking about, part of the RFP 
process that we went through with the Census Bureau in 
selecting us and also selecting those subcontractors.
    Ms. Waters. So, basically, your company controls all the 
subcontractors because they worked for you anyway?
    Mr. Tarakajian. Well, there are now subcontracts that our 
subcontractors have for media buying and other activities.
    Ms. Waters. We'll get to that. But let's make sure we 
understand that, in the beginning, as you referred to it----
    Mr. Tarakajian. Correct.
    Ms. Waters [continuing]. You selected 12 contractors, all 
of whom were subcontractors to you already.
    Mr. Tarakajian. Well, they weren't already subcontractors.
    Ms. Waters. Well, how did they get to be--they are your 
people subcontractors.
    Mr. Tarakajian. Well, when you say that they are our 
people----
    Ms. Waters. Well, you said in the beginning----
    Mr. Tarakajian [continuing]. They are not necessarily part 
of our company. Some of them are; some of them are not.
    Ms. Waters. I don't care how they are hired by you. The 
question becomes are these subcontractors a part of your 
company, whether they're part time, full time, hired in the 
beginning or later on, these are your subcontractors in your 
company, right?
    Mr. Tarakajian. GlobalHue is not part of our company. 
Allied Media, who is a subcontractor, is not part of our 
company.
    Ms. Waters. How many are part of your company, 12, right?
    Mr. Tarakajian. No.
    Ms. Waters. How many of the 12?
    Mr. Tarakajian. I will tell you who is part of our company.
    Ms. Waters. Just tell me how many of the 12.
    Mr. Tarakajian. Weber Shandwick is one.
    Ms. Waters. You don't have to name them. I just want to 
know how many.
    Mr. Tarakajian. Well, I'm trying to go through in my head 
how many are part of our company and how many are not.
    Ms. Waters. We only have so many minutes. How many? Can you 
guess? Somebody tell him.
    Mr. Tarakajian. I believe there are two; Weber Shandwick 
and Jack Morton--I'm sorry, three. The IW Group is also part of 
our Interpublic Group of Companies.
    Ms. Waters. So 3 of the 12 are your own subcontractors that 
were hired through some RFP process.
    Mr. Tarakajian. They are owned by the same holding company 
as we are.
    Ms. Waters. Oh, well, what's the holding company?
    Mr. Tarakajian. Interpublic Group of Companies.
    Ms. Waters. So you are owned by whom?
    Mr. Tarakajian. A company called the Interpublic Group of 
Companies.
    Ms. Waters. Interpublic Group of Companies. So they own you 
and the subcontractors?
    Mr. Tarakajian. They own us and the three subcontractors 
that I mentioned. They do not own the other subcontractors.
    Ms. Waters. Three of the 12, is that right?
    Mr. Tarakajian. Excuse me.
    Ms. Waters. Three of the 12.
    Mr. Tarakajian. I believe it's three of the 12, yes.
    Ms. Waters. OK. Now, tell me about GlobalHue? You have 
GlobalHue Black and GlobalHue Latino or something like that.
    Mr. Tarakajian. That's correct.
    Ms. Waters. Is that one company, or is that two companies?
    Mr. Tarakajian. GlobalHue African American and GlobalHue 
Latino is one company with two separate operations; one 
targeted to the Black audience, and the other targeted to----
    Ms. Waters. You don't need to tell me all that. Who owns 
GlobalHue?
    Ms. Ennis. Don Coleman.
    Ms. Waters. So he owns----
    Ms. Ennis. GlobalHue and GlobalHue Latino.
    Ms. Waters. But he's not owned by----
    Ms. Ennis. He's not owned by Interpublic, no.
    Ms. Waters. OK. Did he have to go through an RFP process, 
or was he appointed or selected to do the media buys for the 
Black and Latino audiences? Did he go through an RFP process?
    Ms. Ennis. He went through the RFP process with DraftFCB.
    Ms. Waters. With whom?
    Ms. Ennis. DraftFCB.
    Ms. Waters. So you selected all of the other nine through 
an RFP process, is that what you did?
    Mr. Tarakajian. We selected all of the other subcontractors 
to be part of our team. Together, we went through this RFP 
process with the Census Bureau to be awarded the contract in 
2007.
    Ms. Waters. Thank you.
    I'm not interested in how many people were involved in the 
RFP process. I just wanted to know, was there an RFP process. 
I'm trying to understand who owns what and how they were 
selected.
    Mr. Tarakajian. I'm trying to help you understand it.
    Ms. Waters. OK. If you would just answer the question and 
not editorialize, you would help me out, OK. So I think we're 
at this point.
    Now, can you tell me how much each--the first three that 
are owned by your company, how much are they contracted for? 
How much, what is the value of each of those contracts?
    Mr. Tarakajian. Well, first of all, I don't have that 
information at my fingertips in terms of how much.
    Ms. Waters. Well, how much is your contract? What is the 
value of your contract?
    Mr. Tarakajian. The total value of the contract is----
    Ms. Waters. Of yours, just yours.
    Mr. Tarakajian. Well, the total value of the contract is 
$340 million.
    Ms. Waters. So $340 million. Who gets paid out of that $340 
million?
    Mr. Tarakajian. All of the subcontractors, ourselves, all 
of the media that's purchased, all of the production that's 
done, literally every activity.
    Ms. Waters. So you have a $340 million contract; three of 
the subcontractors are your people that work in the company 
that you work for.
    Mr. Tarakajian. Correct.
    Ms. Waters. You don't know how much they are paid, each of 
them? You don't know what those contracts are worth.
    Mr. Tarakajian. I do. I don't have that information at my 
fingertips with me.
    Ms. Waters. Do you know how much the other nine contracts 
are worth?
    Mr. Tarakajian. Again, they are not contracts where 
somebody was awarded a specific amount to do the work.
    Ms. Waters. It's an open-ended contract.
    Mr. Tarakajian. It is a contract where we have come 
together to work on the $340 million contract and mutually, 
collaboratively come up with how we are going to divide those 
roles and responsibilities.
    Ms. Waters. I only want to know what you paid these people. 
I don't care how collaborative you are. I want to know, how 
much does each one of them make? Are you telling me it's an 
open-ended contract; you don't have an exact number that you 
contracted for; is that what you're telling me?
    Mr. Tarakajian. No. I can provide that information for you. 
I don't have it at my fingertips right now.
    Ms. Waters. Mr. Chairman, I would like to request that 
information be provided. As a matter of fact, if you're going 
to have any more hearings, I would like to see a flow chart of 
how these companies are connected, how much money they are 
contracted for and whether or not there was an RFP process in 
this collaborative effort that is being described to us.
    Thank you, and I yield back the balance of my time.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.161
    
    [GRAPHIC] [TIFF OMITTED] T1800.162
    
    [GRAPHIC] [TIFF OMITTED] T1800.163
    
    [GRAPHIC] [TIFF OMITTED] T1800.164
    
    [GRAPHIC] [TIFF OMITTED] T1800.165
    
    [GRAPHIC] [TIFF OMITTED] T1800.166
    
    [GRAPHIC] [TIFF OMITTED] T1800.167
    
    [GRAPHIC] [TIFF OMITTED] T1800.168
    
    [GRAPHIC] [TIFF OMITTED] T1800.169
    
    [GRAPHIC] [TIFF OMITTED] T1800.170
    
    [GRAPHIC] [TIFF OMITTED] T1800.171
    
    [GRAPHIC] [TIFF OMITTED] T1800.172
    
    [GRAPHIC] [TIFF OMITTED] T1800.173
    
    [GRAPHIC] [TIFF OMITTED] T1800.174
    
    [GRAPHIC] [TIFF OMITTED] T1800.175
    
    [GRAPHIC] [TIFF OMITTED] T1800.176
    
    [GRAPHIC] [TIFF OMITTED] T1800.177
    
    [GRAPHIC] [TIFF OMITTED] T1800.178
    
    [GRAPHIC] [TIFF OMITTED] T1800.179
    
    [GRAPHIC] [TIFF OMITTED] T1800.180
    
    [GRAPHIC] [TIFF OMITTED] T1800.181
    
    [GRAPHIC] [TIFF OMITTED] T1800.182
    
    Mr. Cuellar [presiding]. Thank you. And I thank the 
gentlewoman from California.
    For the record, sir, 10 days from now, submit to the 
committee the information that Ms. Waters requested.
    Ms. Waters. Excuse me, if I can, thank you. There was one 
part of the question that was not answered. While the gentleman 
may not know how much the other subcontracts are worth, I asked 
him how much was his worth, and that was not answered. He gave 
me the big answer of $340 million. So let me, if I may, inquire 
of that.
    Mr. Cuellar. Yeah, why don't we do this.
    Sir, again, for the record, submit to the committee in 
writing within 10 days from today the information that she 
requested specifically on the $340 million contract. If you can 
break that down as to what your company and the subcontractors 
make.
    Ms. Waters. He doesn't know how much he makes now.
    Mr. Cuellar. Well, apparently, he doesn't, right; is that 
correct?
    Ms. Waters. You don't know how much your contract is worth?
    Mr. Tarakajian. Our contract is worth $340 million. That is 
the value of the contract.
    Ms. Waters. But you told me everybody gets paid out of that 
contract.
    Mr. Tarakajian. That's correct.
    Ms. Waters. How much do you get paid out of the $340 
million for your company?
    Mr. Tarakajian. Again, I would have to go and collect that 
information.
    Mr. Cuellar. Why don't we go ahead and provide that 
information to the committee within 10 working days from today, 
sir.
    Mr. Tarakajian. Will do.
    Mr. Cuellar. And also the information I requested on the 
production, labor, breakdown on the tallying, the dubbing, the 
shipping and all that, if I can have the breakdown, again, to 
be submitted to the committee within 10 working days.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.183
    
    Mr. Cuellar. At this time, I'll recognize the gentlewoman 
from Texas, Ms. Jackson Lee, if you have any further questions. 
You're recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much.
    Dr. Groves, I want to pointedly speak to you because you 
represent the administration, and really say to you that we do 
want to be your partner. We know that this is a collective 
challenge and responsibility in this instance for at least two 
branches of government, the executive and the Congress.
    I want to, first of all, thank the chairman for this 
hearing and just hope that you will leave here knowing that we 
are in fact partners. As I ask my questions, and I'm asking 
them because I am on the ground in our respective districts, 
and I see either the confusion that I've acknowledged and/or 
the angst and anguish. For example, you've indicated, and you 
might want to answer this, you say if you had been in place, 
you would not have used I guess print media or advertising. And 
I would be interested, I want to go quickly, so I want to hear 
that question.
    But what I also wanted to say to you is that, culturally 
speaking, and I don't pretend to be the expert, but living 
amongst very diverse cultures, there are some print newspapers, 
for example, that are in essence the Bible in certain 
communities. Whether it's Asian, whether it's in it's in their 
own language, many language-directed newspapers, whether it's 
Latino, whether it's immigrant, vast immigrant, whether it is 
subsets of the African American population, that means African, 
Haitian and others, these newspapers are valuable. And so when 
I made the comment about, I was not being short the Arab 
American community. I was not being light in my assessment of 
$1.7 million and then moving it to $2.5 million, as if I was 
going to tumble over and feel so overwhelmed by the increase.
    And let me tell you what my concern is. You know, you 
wonder--I enjoyed the Super Bowl. I went to about four or five 
Super Bowl parties, and I enjoyed the diversity of the folk 
that I saw. Unfortunately, I might have been like a lot of 
Americans. Maybe some people were sitting down. But I can tell 
you this. In the homes that I went in, people were so busy 
slapping five and having a good time, I'm not sure what 
advertisements they might have seen. And so, even though you 
might have had a great audience, I can't take a poll. I'm sure 
there was a judgment made on that point, but I'm not sure 
whether anybody came away and said, ``do you know what, besides 
the Saints going marching in, do you know that the Census is 
here?''
    Dr. Groves, I'm not sure that occurred. But I will tell you 
that newspaper ads and electronic media in specific audiences, 
minority radio, make a difference on drive time. Somebody 
picking up a newspaper at a church or at a store, they take 
those papers home. They open them. They may not be reading 
everything, but if they get a front page slot or they see an 
ad, they will move forward on that because it's a piece of 
paper that they're holding onto.
    Let me just hear you very quickly. What did you say about 
print advertising? I wasn't sure whether you were saying you 
were for it or you would have done something different.
    Dr. Groves. What I tried to convey, first of all, I'm not 
an advertiser.
    Ms. Jackson Lee. And I understand. This is just your 
preference. We've already gone over that.
    Dr. Groves. I've learned a lot over the past few months.
    But what was done, I'm sure, because I've seen the 
approach, was to examine for the hard-to-count groups their 
media consumption by type of media.
    Ms. Jackson Lee. Right.
    Dr. Groves. That led to the targeting.
    And so if you go across these different hard-to-count 
groups, the role of radio in the community varies across the 
groups. The role of print varies and so on. So that guided the 
national buys.
    In the last few months, I've been traveling all over the 
place. I've talked to local folks. I was in Minneapolis last, 
gee, just a few days ago, with local newspapers talking about 
exactly what you're talking about, but this was the Somali 
community in Minneapolis.
    Ms. Jackson Lee. Right. I know them well.
    Dr. Groves. I get this point, and when I go back and look 
at the national plan, I see the difficulty we have 
communicating the fact that we have to have certain thresholds; 
we have to go off of audience figures for the outlooks that 
we're using. That's the----
    Ms. Jackson Lee. So you're buying into it now. You would 
have had a different approach, but you understand what we're 
saying.
    Dr. Groves. I understand. And we tried--when I asked how we 
did this, we tried to get input from our regional offices, and 
they did indeed enrich the media outlet list that was part of 
the----
    Ms. Jackson Lee. Let me, because my time is going.
    Dr. Groves. Sorry.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.184
    
    [GRAPHIC] [TIFF OMITTED] T1800.185
    
    [GRAPHIC] [TIFF OMITTED] T1800.186
    
    Ms. Jackson Lee. But let me get on record with you, 
Director Groves, $2.5 million is not enough for print media. I 
haven't gotten the electronic media, and I'm going to do a 
series of questions. I want to leave you now, because you have 
indicated that you will reach out to me on the organization and 
the enrollment and no response and a lot of other issues that 
we need to talk about on the record.
    I want to get that on the record acknowledging how 
important these people are.
    Can I just make these questions, Mr. Tarakajian, on the 
record, Mr. Chairman, I need to get, as I indicated, a list of 
all the contractors, and Congresswoman Waters may have asked 
that. But to Mr. Garcia and Ms. Ennis, I need all of the--
you're doing radio and print?
    Ms. Ennis. Yes.
    Ms. Jackson Lee. Are you producing ads as well?
    Ms. Ennis. GlobalHue and GlobalHue Latino are producing ads 
as well.
    Ms. Jackson Lee. So you're getting persons to act. Are you 
doing television?
    Ms. Ennis. TV, radio.
    Ms. Jackson Lee. OK. What's the buy for television?
    Ms. Ennis. I'm not sure what your question is.
    Ms. Jackson Lee. How much are you spending on TV that's 
directed to the minority community?
    Ms. Ennis. Local TV or national or both?
    Ms. Jackson Lee. Both.
    Ms. Ennis. OK, can I take 1 second?
    Ms. Jackson Lee. OK. Then let me--Mr. Garcia is answering 
the same thing. This is combined.
    The second thing is, I need from you the list of all print 
that you're utilizing.
    And let me be on the record that I have no ownership in the 
Houston Sun. I'm using it as an example, and I'm not precluding 
anyone else. I would like to get a list of all of the 
newspapers. The only reason I use them as an example is my 
understanding is that they were part of the conversation and 
dialog by several groups, and there may be others in Atlanta or 
others somewhere else, and they were left out.
    Ms. Ennis. Houston Sun is on our media buy.
    Ms. Jackson Lee. We don't have that information, but if you 
would give me the whole list. And that is all the papers.
    And then if you have an immigrant population paper list, I 
would appreciate it.
    Ms. Ennis. Yes, we do.
    Ms. Waters. Will the gentlelady yield?
    Ms. Jackson Lee. I would be happy to yield.
    Ms. Waters. While you're making that request, would you 
also request, I guess, what would be termed as the coverage 
that particular newspaper has? Because as I've been looking at 
some of this information, it seems so disproportionate. There 
are some newspapers that, or magazines, that they give 
extraordinary amounts to, and ones who have more coverage get 
less amounts. And I want to see how they make these decisions. 
So if you would include that in your request, I would 
appreciate it.
    Ms. Jackson Lee. I think the gentlelady is correct. The 
analysis of how you made the decisions and how you make 
decisions as to the amount of advertising in the particular 
media magazines versus others.
    I hear the gavel, and I'm just--was this submitted in the 
record, this is the American survey.
    Mr. Cuellar. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.187
    
    [GRAPHIC] [TIFF OMITTED] T1800.188
    
    [GRAPHIC] [TIFF OMITTED] T1800.189
    
    [GRAPHIC] [TIFF OMITTED] T1800.190
    
    [GRAPHIC] [TIFF OMITTED] T1800.191
    
    [GRAPHIC] [TIFF OMITTED] T1800.192
    
    [GRAPHIC] [TIFF OMITTED] T1800.193
    
    [GRAPHIC] [TIFF OMITTED] T1800.194
    
    [GRAPHIC] [TIFF OMITTED] T1800.195
    
    [GRAPHIC] [TIFF OMITTED] T1800.196
    
    [GRAPHIC] [TIFF OMITTED] T1800.197
    
    [GRAPHIC] [TIFF OMITTED] T1800.198
    
    [GRAPHIC] [TIFF OMITTED] T1800.199
    
    [GRAPHIC] [TIFF OMITTED] T1800.200
    
    [GRAPHIC] [TIFF OMITTED] T1800.201
    
    [GRAPHIC] [TIFF OMITTED] T1800.202
    
    [GRAPHIC] [TIFF OMITTED] T1800.203
    
    [GRAPHIC] [TIFF OMITTED] T1800.204
    
    [GRAPHIC] [TIFF OMITTED] T1800.205
    
    [GRAPHIC] [TIFF OMITTED] T1800.206
    
    [GRAPHIC] [TIFF OMITTED] T1800.207
    
    [GRAPHIC] [TIFF OMITTED] T1800.208
    
    [GRAPHIC] [TIFF OMITTED] T1800.209
    
    [GRAPHIC] [TIFF OMITTED] T1800.210
    
    [GRAPHIC] [TIFF OMITTED] T1800.211
    
    [GRAPHIC] [TIFF OMITTED] T1800.212
    
    [GRAPHIC] [TIFF OMITTED] T1800.213
    
    [GRAPHIC] [TIFF OMITTED] T1800.214
    
    [GRAPHIC] [TIFF OMITTED] T1800.215
    
    [GRAPHIC] [TIFF OMITTED] T1800.216
    
    [GRAPHIC] [TIFF OMITTED] T1800.217
    
    [GRAPHIC] [TIFF OMITTED] T1800.218
    
    [GRAPHIC] [TIFF OMITTED] T1800.219
    
    [GRAPHIC] [TIFF OMITTED] T1800.220
    
    [GRAPHIC] [TIFF OMITTED] T1800.221
    
    [GRAPHIC] [TIFF OMITTED] T1800.222
    
    [GRAPHIC] [TIFF OMITTED] T1800.223
    
    [GRAPHIC] [TIFF OMITTED] T1800.224
    
    [GRAPHIC] [TIFF OMITTED] T1800.225
    
    [GRAPHIC] [TIFF OMITTED] T1800.226
    
    [GRAPHIC] [TIFF OMITTED] T1800.227
    
    [GRAPHIC] [TIFF OMITTED] T1800.228
    
    [GRAPHIC] [TIFF OMITTED] T1800.229
    
    [GRAPHIC] [TIFF OMITTED] T1800.230
    
    [GRAPHIC] [TIFF OMITTED] T1800.231
    
    [GRAPHIC] [TIFF OMITTED] T1800.232
    
    [GRAPHIC] [TIFF OMITTED] T1800.233
    
    [GRAPHIC] [TIFF OMITTED] T1800.234
    
    [GRAPHIC] [TIFF OMITTED] T1800.235
    
    [GRAPHIC] [TIFF OMITTED] T1800.236
    
    [GRAPHIC] [TIFF OMITTED] T1800.237
    
    [GRAPHIC] [TIFF OMITTED] T1800.238
    
    [GRAPHIC] [TIFF OMITTED] T1800.239
    
    Ms. Jackson Lee. I would like to submit this in the record. 
I guess we're not having another round.
    But Director Groves, I think this is your document, this is 
the American survey?
    Dr. Groves. The American Community Survey, yes.
    Ms. Jackson Lee. I will say to you that this is posing a 
lot of confusion, and maybe we will get an answer on how we 
decipher that and get people to know it's 10 minutes and 10 
questions. And I know my colleague raised the same point. And 
how we separate this out. Why couldn't this be sent 2011 and 
get this information or December 2010 to get this information? 
So I yield back.
    And I thank the chairman.
    Mr. Cuellar. Thank you very much.
    One question, before I pass it on to the ranking member, 
the company D'Esposito, is that one of them also that's owned 
by you?
    Mr. Tarakajian. Yes. D' Esposito is a company that is one 
of our core subcontractors, but we hired them after.
    Mr. Cuellar. Is that part of the three, or is that No. 4?
    Mr. Tarakajian. No, they are not owned by the Interpublic 
Group. They are an independent company.
    Mr. Cuellar. OK. And I want to correct myself on something. 
In Homeland, I usually give 10 days, but I understand this 
committee, it's 5 days. So I will correct myself and ask that 
the information be submitted 5 days, 5 working days from today.
    At this time, I'll recognize the ranking member.
    Mr. Chaffetz. Thank you. Thank you, Mr. Chairman.
    Before I was talking about the American Community Survey 
and some of the concerns about the timing, the questions and 
whatnot. Let me also say publicly that the Republican National 
Committee, I'm a Republican, sent out a so-called census across 
the country. I think that was wrong. I don't think we should 
necessarily mandate or put in statute that you shouldn't use 
the word ``census.'' But I think it was deceiving at best. And 
I wish my party had not done that.
    I would encourage others to not try to piggyback and take 
advantage of the word ``census'' at a time that we're trying to 
encourage participation. And I think it was used as an 
enticement to open an envelope, and I wish they hadn't have 
done it.
    But I want to be fair on both sides and stand on principle, 
and so I want to say that.
    I have been somewhat frustrated, Director Groves, as you 
know, about the question of hiring criminals to conduct the 
enumeration parts of the Census. I would like to ask again, how 
many criminals are we hiring to do the enumeration, and what 
crimes do you think are acceptable to be hired to become an 
enumerator?
    Dr. Groves. I could--I briefed the chairman and the Ranking 
Member McHenry on the changes in both the fingerprinting and 
the adjudication process. And I think we were close to having a 
meeting, but the snowfall did us in, of all the Members. I 
would be happy to do that again. If you would like I could read 
through all of the crime types that throw out an applicant 
immediately from consideration.
    Mr. Chaffetz. I guess for the benefit of the full 
committee, I would like your commitment and understand the 
timing of when you're going to provide that information. I 
think those are two critical pieces of information. I think 
Congress is entitled to see that information.
    Dr. Groves. I'm happy to do that right now if you would 
like Congressman.
    Mr. Chaffetz. And in the essence of time, I want to be 
careful of my colleagues, if you can submit it right now that 
would be great. I will look at it and read through it tomorrow. 
I understand there's going to be a lengthy list of maybe what's 
not acceptable, but I also want to see what's acceptable. And I 
would like to know how many people we are hiring that fall into 
this category.
    So, again, if I have your commitment that you have this 
information, that you will provide it. We'll try this again. 
The hour is late, and we're coming up on 9 here. Do I have your 
assurance that you are going to provide that information?
    Dr. Groves. Sure.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.240
    
    [GRAPHIC] [TIFF OMITTED] T1800.241
    
    [GRAPHIC] [TIFF OMITTED] T1800.242
    
    Mr. Chaffetz. OK. I appreciate it, because my time is real 
short, one last thing, I would appreciate your explanation on, 
what is this category called ``Census in schools?'' How much 
are we spending there, and what does that really do? I mean, if 
you're a 12-year-old kid, you're not going to be able to fill 
out the Census. And I guess you want to encourage mom to do it, 
but what is this program? And why are we spending so much? And 
how much are we spending on it, and why are we spending so much 
on it?
    Dr. Groves. We're spending about $13 million on it. And let 
me tell you the program to answer your question. This is a 
program that has exercises for K-through-12 kids, year 
appropriate. The focus of the exercise is to teach the 
constitutional basis of the Census in those grades that can 
consume that. In grades that are lower, it talks about what a 
Census is, the fact that this country, since 1790, has done 
this. And they do exercises; accounting, map reading. There's a 
bit of civics, a bit of arithmetic, a bit of geography that's 
done.
    What we found I think and what other countries have found 
repeatedly is that, for new immigrant families, the children 
are the first to learn the language of the new country. And to 
the extent they understand the message and they look forward to 
participating in their Census, their first Census for many of 
them, that aids the participation rate of others. I've gone to 
several schools around the country. We have enlisted the help 
of Sesame Street characters to help get this message out, so 
the Count and Rosita sometimes come with me. The kids get it.
    Mr. Chaffetz. Maybe next time you could bring them along.
    Dr. Groves. I have quizzed kids about things that my adult 
friends don't know. The lessons are working. They know why we 
do a Census. They know--some of them know that Thomas Jefferson 
was the first Director of the census. They get it. So I think 
this is an area that we should all be proud that we're teaching 
these young Americans about how this country works and how the 
census fits into it.
    Mr. Chaffetz. It sounds like an admirable goal. You know, I 
question $13 million, and how did it work. And, obviously, I 
think, Mr. Chairman, it's $13 million. How is that money passed 
out?
    Dr. Groves. This is actually done through schools. So with 
an alliance from scholastic.com, teachers can go to the Web 
site and download the materials. This seems to be working. And 
then we send out maps and other materials directly to the 
schools.
    Mr. Chaffetz. If we could learn the details of how that is 
administered and how that money gets put out.
    Dr. Groves. Sure.
    Mr. Chaffetz. On the one hand, it sounds like a very large 
number. When you think about the tens of millions of kids we 
have out there and all the schools----
    Dr. Groves. And do you know what's fun? To go to a school 
in your district and watch them do this exercise.
    Mr. Chaffetz. If we could learn more about how that money 
is administered and who has that contract. That's sort of 
similar to what we were talking about before. We would 
appreciate it.
    Thank you, Mr. Chairman.
    Mr. Cuellar. And Director Groves, again, within 5 days, if 
you can submit that information from today. Director Groves.
    We're about to close, but let me say, you and I have spoken 
about the question that the ranking member asked, and of 
course, you're going to do everything to make sure that the 
American public is protected; is that correct?
    Dr. Groves. Absolutely. I've testified and I've given 
speeches that the safety of both the American public and our 
enumerators are key to the success of the Census. This has to 
be both true in fact and true in perception. I care deeply 
about this. We're doing everything we can to make sure that 
occurs.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.243
    
    [GRAPHIC] [TIFF OMITTED] T1800.244
    
    [GRAPHIC] [TIFF OMITTED] T1800.245
    
    [GRAPHIC] [TIFF OMITTED] T1800.246
    
    [GRAPHIC] [TIFF OMITTED] T1800.247
    
    [GRAPHIC] [TIFF OMITTED] T1800.248
    
    [GRAPHIC] [TIFF OMITTED] T1800.249
    
    Mr. Cuellar. And I know you well, so I appreciate your 
time. Director Groves--one more? One more question, and then 
we're going to move to the next panel.
    Ms. Jackson Lee. A record clarification if I could.
    And, Dr. Groves, you didn't answer my question on the 
American survey, the timing. Is that now, or is it later?
    Dr. Groves. Since the early 2000's, continuously we've been 
doing that survey. Every month, a small sample of households 
get that, and it just keeps going forever.
    Ms. Jackson Lee. You might think with your top leadership 
how we can help people discern the two, particularly in the 
unaccounted area.
    Mr. Chairman, just a record clarification. Ms. Ennis, are 
you going to submit what I asked you to submit in writing, or 
do you have a number right here?
    I asked a question, Mr. Chairman, and she was looking 
through her papers.
    Ms. Ennis. I can give you the numbers right now and in 
writing if you would like, if we have time.
    Ms. Jackson Lee. Mr. Chairman, I don't know if--how do you 
want it, Mr. Chairman?
    Mr. Cuellar. If we can do this quickly, because I do want 
to move into the second panel.
    Ms. Jackson Lee. If you can just say it quickly.
    Ms. Ennis. I'm just going to read them off.
    It's $6 million in national television; $4.2 million in 
local television; $2.8 million in national radio; $3.9 million 
in local radio; $1.6 million online, that's digital marketing; 
$800,000 in magazine; $2.5 million in local newspapers; and 
$1.2 million in out of home.
    Ms. Jackson Lee. We're writing it down, and you can put 
that in writing.
    And I'll just close on this point so that I will not be 
reflected negatively in the record. I'm not asking about one 
newspaper. I used them as an example of individuals who were 
left out. And Mr. Bakewell is here, and he knows that I'm 
looking at the vast number of newspapers, not only in Houston 
but elsewhere, and I think that number is not high enough.
    And last, my good friend from Utah, I would like to clarify 
the word ``criminals,'' because I have the greatest respect for 
the Census, and I know that it's a different term from 
criminals. These are individuals who you're not barring, who 
happen to be ex-felons or maybe ex-felons or may have had and 
are through the process and are employable.
    So I know that they may have had a record, to my 
distinguished gentleman.
    And I know that you're going to give him a report, Dr. 
Groves, about what the criteria is, but I wouldn't want to 
frighten the public about criminals. I believe it is different 
from that. It is people who are eligible to work who may have 
had a prior encounter with the law, and you vetted them and 
making sure they're able to work. But I know you'll give us a 
final report on that.
    And I yield back to the chairman.
    Mr. Cuellar. Thank you.
    Thank you very much to the witnesses.
    Dr. Groves, Mr. Tarakajian, Mr. Garcia and Ms. Ennis, we 
want to thank you very much.
    Again, this was a long day. As you can see we started out 
with Toyota, and still got one last panel, I believe, or two 
more. All right. So, again, I want to thank you.
    To all of you all, thank you very much. We'll move on to 
the second panel at this time. Thank you very much. Good night.
    Before we get started, I believe the U.S. Census Director's 
staff turned in a document to the ranking member, and you want 
to make a motion.
    Mr. Chaffetz. I just ask unanimous consent to submit it 
into the record.
    Mr. Cuellar. Without objection.
    All right. We now move to our second panel.
    Our first witness is Ms. Karen Narasaki, the executive 
director of the Asian American Justice Center, one of the 
Nation's leading voices that advocates for the rights and 
interests of Asian Americans.
    The second witness is Mr. Arturo Vargas, the executive 
director of the National Association of Latino Elected 
Officials [NALEO], the national organization of Latino 
policymakers and their supporters.
    The next one will be Ms. Helen Hatab Samhan, the executive 
director of the Arab American Institute Foundation.
    Thank you again for being here.
    And then we have the final panelist is Ms. Linda Smith, 
executive director of the National Association of American 
Child Care Resource and Referral Agencies.
    I want to thank all of you all for appearing before this 
subcommittee.
    As you know, it is a policy of the Oversight and Government 
Reform Committee to swear in all the witnesses before they 
testify. And I would like to ask each of the witnesses to 
please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Cuellar. Let the record reflect that the witnesses 
answered in the affirmative.
    Each of you all will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The yellow light will indicate that it is 
time to sum up. The red light indicates that your time has 
expired.
    And Members, we are going to stick to the 5 minutes. We're 
just going to go one round for the courtesy of the witnesses. 
And of course, I think we have another panel afterwards. It is 
9:06, so we're just going to go with--we'll be very strict on 
the time and just go with one line.
    So, at this time, Ms. Narasaki, I would ask you to proceed 
with your testimony.

    STATEMENTS OF KAREN NARASAKI, EXECUTIVE DIRECTOR, ASIAN 
  AMERICAN JUSTICE CENTER; ARTURO VARGAS, EXECUTIVE DIRECTOR, 
 NATIONAL ASSOCIATION OF LATINO ELECTED OFFICIALS; HELEN HATAB 
SAMHAN, EXECUTIVE DIRECTOR, ARAB AMERICAN INSTITUTE FOUNDATION; 
 AND LINDA SMITH, EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION OF 
       AMERICAN CHILD CARE RESOURCE AND REFERRAL AGENCIES

                  STATEMENT OF KAREN NARASAKI

    Mr. Narasaki. Thank you, Mr. Chairman. We appreciate the 
invitation to the Asian American Justice Center to testify on 
this very critical issue.
    My name is Karen Narasaki, and I'm president of the Asian 
American Justice Center. We are a member of the Census Bureau's 
Advisory Committee for the 2010 census. And as we did in 2000, 
AJC is leading a national Census outreach campaign for Asian 
Americans and Pacific Islanders.
    We are working with partners such as our affiliates in LA, 
the Asian Pacific American Legal Center of Southern California; 
and in Chicago, the Asian American Institute in Illinois; and 
one of our key partners in New York, the Asian American 
Federation. We have directly funded in a coordinating effort by 
29 local community-based organizations in 21 States. And they 
include the Legal Center in LA, which is subgranting a 
statewide campaign, as well as three groups in Houston; OCA, 
BPSOS and one of the South Asian organizations.
    We have also developed educational PSAs, brochures and 
other translated materials and have created a Web site that 
serves as a national clearinghouse for census 2010 materials 
created for Asian Americans and Pacific Islanders in various 
languages. And it's part of our campaign, ``Fill in Your 
Future,'' and you can find it at fillinyourfuture.org.
    We are also partnering with national civil rights 
organizations such as the Leadership Conference on Civil 
Rights, the National Conference of American Indians, the NAACP 
and the NALEO. Mr. Vargas will be testifying after me.
    As you know, Asian Americans have historically been 
undercounted. And because the community is two-thirds foreign 
born and comprised of more than several dozen distinct ethnic 
groups and a multitude of cultures, speaking many different 
languages varying generationally, many challenges exist in 
counting this population.
    We are pleased that the Census Bureau has listened to our 
recommendations from the 2000 census effort in building their 
2010 Census Integrated Communications Campaign. Ethnic media is 
a very important tool in communicating to our community. In 
fact, three in four Asian Americans are reached through ethnic 
media.
    The Asian American media plan is significantly more 
inclusive than in 2000, with more languages covered and over 
750 media outlets engaged. Media buys are being made nationally 
and in 53 additional local markets, covering 13 Asian languages 
and 17 Asian ethnic groups.
    And most importantly, this campaign does not have a one-
size-fits-all generic Asian campaign, but it is one that is 
culturally sensitive for each targeted ethnic group.
    However, while there is improvement, there are still 
significant gaps. Too many restrictions on the access to the 
agencies working on the media campaign by community partners 
working with the Bureau have created frustration for a lot of 
our partners and has, unfortunately, bred some suspicion and 
animosity that we think could be prevented. This has led to 
negative media coverage in some ethnic newspapers of census 
2010 at a time when the Bureau needs to be building trust in 
our communities.
    The national budgets allocated for communities do not 
appear to be enough to cover several of the smaller but growing 
and harder-to-count Asian communities, such as the Indonesians, 
the Sri Lankans, Burmese, and isolated communities, such as the 
Montagnards Vietnamese.
    In addition, there's no Pacific Islander media campaign for 
the mainland; it is only focused on the island. Many Pacific 
Islanders actually reside on the Continental United States, and 
we run a high risk of missing them during the 2010 census.
    Finally, key opinion leaders often read the English 
language Asian media, and despite the increase in English 
language Asian media outlets, no resources seem to have been 
allocated at all to these media organizations.
    Of great concern also is the regional office issues. 
There's a lack of coordination between the national and 
regional local outreach and public relations efforts. The 
Bureau needs to ensure better coordination. It is important for 
them to work with their regional offices also to make sure that 
they are recruiting, hiring and training the employees with the 
best language and cultural skills needed to secure an accurate 
count.
    Another concern is the need for adequate hiring and 
training. Unfortunately, the AAPI partnership specialists 
qualities vary significantly across the regions, and not enough 
specialists have been hired to cover various communities. So, 
for example, in Chicago, our affiliate there had to fight to 
get even one Asian-specific partnership specialist hired, 
despite the growth in the population. To date, the regional 
office has only recruited one Chinese-speaking partnership 
specialist, despite the huge diversity of the immigrant 
community in Chicago.
    We also believe that the Census Bureau needs to act quickly 
to identify its Questionnaire Assistance Centers and Be Counted 
Sites. In 2000, they did it only a week before census day. And 
they must do a better job coordinating the advertising of where 
these sites are going to be, including the organizations' 
leading community based outreach efforts.
    Finally, the Census Bureau needs to make much more of a 
priority to ensure that deceptive mailings and Internet scams 
that pretend to represent the Census Bureau and census 2010 are 
not used to mislead, misinform, or otherwise swindle these 
particularly vulnerable communities.
    In conclusion, I look very much forward to answering any 
questions you may have. Thank you very much.
    [The prepared statement of Ms. Narasaki follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.250
    
    [GRAPHIC] [TIFF OMITTED] T1800.251
    
    [GRAPHIC] [TIFF OMITTED] T1800.252
    
    [GRAPHIC] [TIFF OMITTED] T1800.253
    
    [GRAPHIC] [TIFF OMITTED] T1800.254
    
    [GRAPHIC] [TIFF OMITTED] T1800.255
    
    [GRAPHIC] [TIFF OMITTED] T1800.256
    
    [GRAPHIC] [TIFF OMITTED] T1800.257
    
    [GRAPHIC] [TIFF OMITTED] T1800.258
    
    [GRAPHIC] [TIFF OMITTED] T1800.259
    
    [GRAPHIC] [TIFF OMITTED] T1800.260
    
    [GRAPHIC] [TIFF OMITTED] T1800.261
    
    [GRAPHIC] [TIFF OMITTED] T1800.262
    
    [GRAPHIC] [TIFF OMITTED] T1800.263
    
    [GRAPHIC] [TIFF OMITTED] T1800.264
    
    [GRAPHIC] [TIFF OMITTED] T1800.265
    
    [GRAPHIC] [TIFF OMITTED] T1800.266
    
    [GRAPHIC] [TIFF OMITTED] T1800.267
    
    [GRAPHIC] [TIFF OMITTED] T1800.268
    
    [GRAPHIC] [TIFF OMITTED] T1800.269
    
    [GRAPHIC] [TIFF OMITTED] T1800.270
    
    Mr. Cuellar. Thank you very much for your testimony.
    At this time, the Chair recognizes Mr. Vargas to proceed 
with his opening statement.

                   STATEMENT OF ARTURO VARGAS

    Mr. Vargas. Thank you Mr. Chairman, Representative Jackson 
Lee, my fellow Angeleno, Representative Waters. Thank you for 
the opportunity to appear before you tonight to discuss this 
topic.
    First, we applaud the Census Bureau for recognizing the 
importance of using Spanish language media and commend the 
breadth of the paid media strategy, the investments in creating 
and developing messages based on research and in consultation 
with key stakeholders. However, we have identified significant 
weaknesses in the Bureau's Latino communications plan.
    First, the Bureau's 2010 investment to reach Latinos does 
not keep pace with inflation nor with population growth. In 
2000, the Bureau spent $18.9 million on Latino outreach, 
compared to $25.5 in 2010. Had the Bureau merely accounted for 
inflation, the 2010 budget would have been $23.4 million. 
Accounting for more than half of the total U.S. population 
growth, the Latino population has increased by 33 percent since 
2000. Had the Bureau increased its spending to account for both 
inflation and population growth, the 2010 Latino allocation 
would have been at least $31 million.
    Second, the Bureau's Latino strategy relies almost 
exclusively on Spanish-language media and ignores the English-
dominant Latino population. While Spanish language media are 
very effective in reaching Latinos who consume those media, 
many Latinos rely primarily on English language media. The 
Bureau investment in English language media is virtually 
nonexistent. We are deeply concerned that English-dominant 
Latinos, may of whom live in hard-to-count communities, will 
not be reached effectively.
    Third, our media partners have informed us that the 
Bureau's investment is not enough for effective market 
penetration in many regions of the country. This is 
particularly a problem in nontraditional Latino population 
centers such as the Deep South, the Mid-Atlantic, and the 
Midwest.
    A fourth weakness is the method by which the Bureau used to 
decide local media buys which allow for deeper market 
penetration and better message targeting. The Bureau developed 
six criteria to develop local Spanish language media buys. 
Those markets meeting at least four of the six criteria were 
selected.
    Now we commend the Census Bureau for including hard-to-
count scores and mail return rates in the criteria. However, we 
do have concerns with the methodology by which these criteria 
are formulated.
    Where the Latino population is concentrated in hard-to-
count areas, the use of market-wide HTC averages mask the 
presence of areas with low HTC scores. This measurement fails 
to accurately capture the hard-to-count score for many Latinos 
in a particular market.
    Similarly, the criterion which uses the average 2000 census 
form mail return rate [MRR], for a local market provides a 
skewed measure of the return rate among Latinos.
    We analyzed nine media markets that did not receive local 
television media purchases by isolating specific tracks of 
significant Latino populations and determined their average HTC 
score and MRR. We also examined the Latino percentage within 
tracks and HTC scores of the national average or mail response 
rates below the national average. This analysis presents a very 
different picture of the need for spot buys.
    Our analysis suggests that the Bureau did not make local 
spot buys in areas where its averaging methodology masks the 
presence of hard-to-count Latinos. Similarly, several markets 
with above average response rates have Latino tracks where the 
rate is significantly lower than the national average. These 
markets include Boston, Austin, and Hartford-New Haven.
    The Bureau's HTC and mail response criteria are compounded 
by population size criteria. This disproportionately affects 
markets with emerging Latino populations and communities which 
are relatively small. For example, the Laredo market is by all 
measures a hard-to-count Latino market, but it does not meet 
the 100,000 Latino household threshold criterion. Similarly, 
the Atlanta market has over 158,000 households, many of them in 
hard-to-count Census tracks, yet fails to me the criterion of 
Latino households comprising at least 11 percent of all 
households in a particular market. Both of these markets were 
shut out of local media buys.
    So, therefore, based on our analysis we offer the following 
policy recommendations: One, the Census Bureau must make a 
reasonable investment in paid advertising to reach English-
dominant Latinos, and it must significantly increase its 
spending on Spanish-language media.
    Two, the Census Bureau must be more transparent with 
respect to criteria for targeting local buys. We believe the 
Bureau was overly vague with stakeholders about a strategy, 
making it difficult to provide any guidance. We urge the Bureau 
to do better in its media buys during nonresponse followup.
    Third, the Census Bureau should report to Congress and 
stakeholders strategies to reach Latinos in local markets that 
are difficult to count and do not receive local media buys.
    Fourth, the Census Bureau should carefully examine the 
inadequacies in existing Spanish-language local media buy 
criteria and make improvements when implementing nonresponse 
followup.
    Finally, there are two unrelated matters that warrant this 
subcommittee's attention. We recommend Congress curtail third-
party efforts that exploit the Census. We also urge the Bureau 
to develop a paid media strategy to inform the public about 
what data are and are not collected in the Census and how to 
identify authentic enumerators. There are recent press reports 
that fake Census takers are defrauding families who believe 
they are cooperating with the Bureau. These acts are repugnant, 
undermine the Census, and they must be stopped.
    Thank you again for this opportunity to share our views on 
the 2010 census media plan on hard-to-count communities. We 
look forward to working with the Congress in partnership with 
the Bureau in ensuring a full Census count in 2010.
    [The prepared statement of Mr. Vargas follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.271
    
    [GRAPHIC] [TIFF OMITTED] T1800.272
    
    [GRAPHIC] [TIFF OMITTED] T1800.273
    
    [GRAPHIC] [TIFF OMITTED] T1800.274
    
    [GRAPHIC] [TIFF OMITTED] T1800.275
    
    [GRAPHIC] [TIFF OMITTED] T1800.276
    
    [GRAPHIC] [TIFF OMITTED] T1800.277
    
    [GRAPHIC] [TIFF OMITTED] T1800.278
    
    [GRAPHIC] [TIFF OMITTED] T1800.279
    
    [GRAPHIC] [TIFF OMITTED] T1800.280
    
    [GRAPHIC] [TIFF OMITTED] T1800.281
    
    [GRAPHIC] [TIFF OMITTED] T1800.282
    
    [GRAPHIC] [TIFF OMITTED] T1800.283
    
    [GRAPHIC] [TIFF OMITTED] T1800.284
    
    [GRAPHIC] [TIFF OMITTED] T1800.285
    
    [GRAPHIC] [TIFF OMITTED] T1800.286
    
    [GRAPHIC] [TIFF OMITTED] T1800.287
    
    [GRAPHIC] [TIFF OMITTED] T1800.288
    
    [GRAPHIC] [TIFF OMITTED] T1800.289
    
    [GRAPHIC] [TIFF OMITTED] T1800.290
    
    [GRAPHIC] [TIFF OMITTED] T1800.291
    
    [GRAPHIC] [TIFF OMITTED] T1800.292
    
    [GRAPHIC] [TIFF OMITTED] T1800.293
    
    Mr. Cuellar. Thank you, Mr. Vargas.
    Ms. Samhan, if you can proceed with your testimony.

                STATEMENT OF HELEN HATAB SAMHAN

    Ms. Samhan. Thank you for this opportunity to share the 
perspectives of Arab Americans as you explore the issues that 
will affect communities who will be hard to count in 2010.
    By way of background, the Arab American Institute has over 
two decades of experience in working with the Census Bureau on 
ways to improve data collection and also questionnaire 
relevance to ethic Americans and particularly to Arab 
Americans.
    It's no surprise I don't think to anyone that in the wake 
of September 11th prejudice and fear about Arabs emerged in 
American popular and political culture and were also manifested 
in national security policies, which were often based on 
profiling large segments of the Arab and Muslim populations 
based solely on their national origin or religious affiliation. 
This political and security environment and climate play a 
significant role in how Arab Americans will view the 2010 
census.
    The hard-to-count community in my view fall into three 
categories: The traditionally hard to count. Those are 
immigrant families who have limited English proficiency, are 
not familiar as much with American processes, and might have 
come from countries where the government is not exactly a 
friend.
    The second category is the post-9/11 hard to count. And 
those are people who were willing to cooperate and support the 
Census in the last time around, but now, because of racial 
profiling in the wake of 9/11, are now more suspicious and less 
likely to appreciate the protections that are afforded by the 
Census Bureau.
    The third area is what we call identity hard to count, and 
this relates to the race categories as defined by the Office of 
Management and Budget and which are reflected on the 2010 
census form. The undifferentiated White and Black race 
categories that do not allow for subgroup identification have 
caused confusion, alienation, and even anger within segments of 
the American population with origins in the Middle East and 
North Africa.
    Many first- and second-generation Arab Americans do not 
understand the race distinctions that are codified by the OMB 
categories and have lived through experiences both before and 
after 9/11 where they don't feel treated like the White 
majority population and therefore they don't relate to the race 
categories.
    The great attention to pluralism and ethnic and racial 
diversity in American civic discourse has further added to this 
disconnect between race classification and our active 
participation in the promotion of racial justice, tolerance, 
the defense of civil liberties, and the support for national 
security policies that do not punish or resort to racial 
profiling.
    Given this context and the fact that ancestry data are no 
longer collected in the decennial census operation, activists 
and advocates have the dilemma of encouraging participation in 
a survey which does not appear to recognize who Arab Americans 
are. While advertising alone will not reverse all of these 
challenges, we recognize and appreciate the serious effort that 
was made by the Bureau to reach Arab Americans and convince 
them of the safety and value of the Census participation.
    The early decision to include in the paid advertising 
campaign emerging language communities like Arabic beyond the 
recognized race and minority groups was a positive step, even 
though the percentage of the overall budget was understandably 
small. The Census Bureau listened to the need to address 
concerns about privacy and confidentiality in the early phases 
of Census planning and conducted focus groups to study opinions 
and attitudes of Arab Americans toward the Census.
    Our participation in the advisory process permitted a 
dynamic interaction in the planning of the 2010 census 
communications strategy, a process that sought advice and 
feedback from the early stages of conceptualization and review 
of message and creative design.
    Efforts to reach the Arab American community extend well 
beyond the paid advertising campaign. A number of regional 
Census offices, notably Detroit, Philadelphia, New York, and 
Los Angeles, dedicated partnership resources to reach Arab 
communities in their areas. Detroit, in particular, led the way 
by arranging for translation of outreach materials into Arabic 
as early as last summer and by assigning a team of up to six 
partnership specialists to work with the Middle East community.
    Finally, in our capacity as a national partner, we are 
launching a ``trusted voices'' PSA campaign in Arabic language 
media. The same agency that was hired by the Census Bureau for 
paid media ads offered to design and produce these ads on a pro 
bono basis.
    Our overall evaluation of the 2010 Census Integrated 
Communications Campaign is that it represents significant 
improvement over previous Census efforts. We understand that 
adequate resources and time are perennial challenges to any 
Census operation, and there's never enough of either to assure 
a perfect process. We also understand that multiple and 
sometimes competing interests of diverse advisory bodies make 
the consultative process complex, demand extraordinary 
patience, and result in decisions that are bound to disappoint 
some stakeholders.
    We are stakeholders, however, and are committed to work 
with the Bureau not only in the final weeks of the 2010 census 
but in the months and years that follow the decennial 
operation. Our interests going forward include studying the 
extent to which some other race is used by respondents of Arab 
origin and the results of the experimental panels to test 
alternative ways to measure race and ethnicity, and we look 
forward to new research into adding a question on ancestry in 
the next census in 2020.
    [The prepared statement of Ms. Samhan follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.294
    
    [GRAPHIC] [TIFF OMITTED] T1800.295
    
    [GRAPHIC] [TIFF OMITTED] T1800.296
    
    [GRAPHIC] [TIFF OMITTED] T1800.297
    
    [GRAPHIC] [TIFF OMITTED] T1800.298
    
    [GRAPHIC] [TIFF OMITTED] T1800.299
    
    [GRAPHIC] [TIFF OMITTED] T1800.300
    
    [GRAPHIC] [TIFF OMITTED] T1800.301
    
    [GRAPHIC] [TIFF OMITTED] T1800.302
    
    [GRAPHIC] [TIFF OMITTED] T1800.303
    
    [GRAPHIC] [TIFF OMITTED] T1800.304
    
    [GRAPHIC] [TIFF OMITTED] T1800.305
    
    [GRAPHIC] [TIFF OMITTED] T1800.306
    
    [GRAPHIC] [TIFF OMITTED] T1800.307
    
    [GRAPHIC] [TIFF OMITTED] T1800.308
    
    [GRAPHIC] [TIFF OMITTED] T1800.309
    
    [GRAPHIC] [TIFF OMITTED] T1800.310
    
    [GRAPHIC] [TIFF OMITTED] T1800.311
    
    Mr. Cuellar. Thank you for your testimony.
    At this time the chair will recognize Ms. Smith for 5 
minutes.

                    STATEMENT OF LINDA SMITH

    Ms. Smith. Thank you, Mr. Chairman and members of the 
committee, for inviting me to testify tonight.
    My name is Linda Smith, and I'm the executive director of 
the National Association of Child Care Resource and Referral 
Agencies [NAACCRRA]. That makes it a little bit easier.
    We are a nonprofit membership association, and we represent 
roughly 700 community based child care resource and referral 
agencies around the country. These agencies help ensure that 
families in 99.3 percent of all inhabited zip codes in the 
United States have access to high quality, affordable child 
care.
    Every week in this country, over 11 million children are in 
the care of someone other than their parents; and these 
children are under the age of 5. They are cared for by over 2.3 
million child care providers. This group, as we know, is one of 
the most undercounted populations in the Census, and we have a 
serious interest in ensuring that these children get counted. 
So we see that child care can provide a vital link into this 
population during the 2010 census count.
    Our member agencies maintain a data base of child care 
providers and programs and use it to link parents who are 
looking for care to child care programs in their communities. 
On an annual basis, we provide services to over 7 million 
parents.
    Here in Washington, NAACCRRA operates Child Care Where, a 
national toll-free hotline and Web site designed to link 
parents to child care providers in their local areas. We serve 
another million parents through this hotline. Beginning this 
week, we will be posting information on the site about the 2010 
census and will continue doing so throughout the period; and we 
will be encouraging our 700 members to do the same.
    Not only do we help parents find child care, but we also 
train over half a million child care workers every year. In 
addition, we collect information on the supply and demand for 
care and the cost of care in communities around this country. 
About 40 percent of our agencies administer child care 
subsidies to low-income families on behalf of States.
    NAACCRRA itself manages a fee-assistance program for nearly 
20,000 children of AmeriCorps and Vista volunteers and military 
service personnel living off base, including National Guard and 
Reserve members currently deployed.
    Given our reach into the child care community, we have 
taken the lead in working with the Census Bureau to disseminate 
information about the importance of the 2010 census to parents. 
We have an aggressive plan, and much of our work will be 
focused on families living in difficult-to-count areas.
    We are working with other national organizations such as 
the Children's Leadership Council, the National Head Start 
Association, the National Black Child Development Institute, 
the National Indian Child Care Association, and LaRaza. We will 
be publishing our materials both in English and in Spanish.
    You have already heard the statistics or are aware of the 
undercount of the young child population. You have heard many 
of the reasons why that exists. We know firsthand that it's 
very difficult to reach into this community. In general, we 
know that families with young children are highly mobile and 
they do not have as many anchors in the community as families 
with children who are in public schools.
    But one thing that we do know, when they move, they need 
child care; and we can reach them during that process. We have 
a broad national network and are working with the Census Bureau 
to connect parents to their local child care programs. Our hope 
is to reach millions of families and ensure that our youngest 
children are well represented in the 2010 census.
    We will specifically target our agencies located in the 
most hard-to-serve counties, as submitted earlier. Because our 
programs depend on Federal funds that are apportioned based on 
the subsidy data, they have a real interest in getting this 
right in their communities.
    Before I close, I would like to acknowledge the efforts of 
the Annie E. Casey Foundation for their work on this issue. It 
is through their efforts that NAACCRRA has become involved in 
this work. We are working with Annie E. Casey and the Census 
Bureau, and our goal is to ensure that every child living in 
the United States is accurately counted in 2010.
    Again, thank you for inviting me to testify.
    [The prepared statement of Ms. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.312
    
    [GRAPHIC] [TIFF OMITTED] T1800.313
    
    [GRAPHIC] [TIFF OMITTED] T1800.314
    
    [GRAPHIC] [TIFF OMITTED] T1800.315
    
    Mr. Cuellar. Ms. Smith, again, thank you very much for 
being here with us and, again, to all the witnesses.
    We now move on to the question period for the Members and 
proceed under the 5-minute rule for Members. I will stick as 
Chair to the 5 minutes. I will go ahead and proceed now as the 
Chair.
    I just have one general question for all of you all. You 
heard the witnesses before. You heard how they were spending 
the money. There were questions about the contractors, and 
apparently the contractor didn't know how much money he was 
taking in and all that. Because I want to see more of that 
money spent in the field instead of up there for contracting 
purposes. What are your general thoughts about this? Anybody.
    Mr. Vargas, go ahead.
    Mr. Vargas. Thank you, sir, for that question.
    I think one of the problems is that this field is very 
expensive; and the Bureau, in many respects, regardless of who 
would have been the contractor, would have had to spend top 
dollar to get this job. I would say the quality of some of the 
ads that have been produced are high-quality ads, but the 
amount of money that is actually being spent on getting the ads 
out into the market is where I think this falls short. Because 
the rotation of the ads really is not sufficient to reach, at 
least in the Latino community's case, enough of a penetration 
in the markets to motivate people to act.
    Our media partners have told us that people need to hear 
the message at least seven times to understand what is 
happening, and they don't believe that the national coverage 
itself is sufficient to reach people seven times. Given the 
lack of local media buys in these emerging communities like 
Atlanta, Tampa, Orlando, Austin, Boston, Laredo, I think we are 
at serious risk of people not getting the message enough to be 
motivated to act.
    Mr. Cuellar. I believe what you're saying for the hard-to-
count places, the local advertising, trusted voices would be 
more effective than the Golden Globes, Super Bowl. Would you 
agree that using some of that local media, whether its Hispanic 
or African American, would work better than some of the money 
that they have spent?
    Mr. Vargas. I think more local media would be very 
important, especially in emerging markets. We are particularly 
concerned about the lack of targeting Latinos in the South, 
which we have seen hypergrowth of Latino communities in the 
Carolinas, in Georgia, in Arkansas. Those are the communities 
that are going to rely exclusively on national media buys, 
which we have been told aren't sufficient to really motivate 
people to act.
    Mr. Cuellar. A question for all of you all, and I don't 
know if you all were stakeholders in this, but did they give 
you sufficient input or an opportunity to get your input in the 
overall strategy? Just from left to right.
    Ms. Narasaki. AAJC is part of the Census Advisory 2010, and 
we were actually part of a task force on media and advertising.
    The challenge, as you know, is a lot of the decisions get 
made many, many years before. That then limits what you can do 
going forward. So by the time that we were included, a lot of 
key decisions in terms of how much money would actually be 
available are already made.
    I want to echo what Arturo said about the issue about local 
trusted media that you yourself are making. One of the biggest 
issues in our communities, particularly the Latino and the 
Asian community, is to overcome the issue of distrust of 
government; and it is those local, trusted ethnic media who 
they trust for their knowledge of what is going on in their 
communities that have the most influence in being able to 
overcome that particular distrust. An ad on the Super Bowl 
isn't going to do it for them.
    Then, I just wanted to add on an earlier question about the 
ACS. My sister got the ACS questionnaire. She's college 
educated. We are four generation. We are not an immigrant 
population. And she herself was confused. She called to yell at 
me about how long it was. When I told her that actually isn't 
the Census, there's a second one that is coming in April, it 
was very confusing for her.
    There does need to be, I think, much more thought about how 
do you educate communities--how do you use some of the 
advertising to educate communities that there are, in fact, two 
Census tools going out. And particularly in the minority 
communities where it's hard enough to get them to answer one, 
you can imagine the challenge of trying to get them to answer 
two. Thank you.
    Mr. Cuellar. If you want to close up, because I want to 
stick to my 5-minute rule.
    Mr. Vargas. Thank you, sir.
    Not only is NALEO a member of the Census Advisory Committee 
but a member of the Joint Advertising Advisory Review Panel 
[JAARP]. And I want to commend the Bureau for establishing that 
review panel because back in April of last year we were able to 
put the brakes on what we thought was an obsolete messaging 
campaign that DRAFTFCB had developed. We asked them to go back 
to the drawing board to come back with different ads which we 
believe now are more appropriate for the kind of environment 
the Census is being conducted in, including the recession.
    Now what the Bureau did not do as good a job at is letting 
us know where the media buyers are going to be and how much 
will be spent on media buys. Had we been a partner like we were 
on the messaging, I think we could have been used better to 
advise the Bureau as to where we believe local media buys were 
more necessary.
    Ms. Smith. Can I respond to that, too?
    We are, obviously, a nonprofit association; and we are not 
receiving any funds to do the work that we are doing. I have to 
say that I think there's been sort of an overlooking of the 
whole nonprofit community and mobilizing them around the 
Census. If it hadn't been, as I said in my testimony, for the 
Annie E. Casey Foundation, the work that I had done with them 
in the past, we would not have been brought into this. I 
think--and now we are working with the Bureau on this--on 
trying to get this count of children.
    But I will add that I work with another organization here 
in Washington that represents over 50 children's organizations, 
all of them nonprofit, and none of them to my knowledge have 
been contacted to mobilize around the Census. I think it's a 
missed opportunity. These people represent groups that are 
highly trusted in their communities. I think we could do a lot 
more to get the Census out and we would benefit from it.
    Mr. Cuellar. Thank you.
    At this time, I will recognize the gentlewoman from 
California, Ms. Waters, for 5 minutes.
    Ms. Waters. Thank you very much.
    Just simply based on everything that you have seen and you 
understand about how this team is working, for each of you, 
just quickly, could you support the idea that there should be 
more money put in local media buys?
    Ms. Narasaki. Very definitely needs to be more money put in 
local media buys, particularly in the ethnic markets.
    One of the challenges, like with the Latino advertising 
dollars, the Asian dollars went up a little bit. But if you 
adjust for inflation and the fact that you're trying to cover a 
population that has gone from 12 to 15 million and has more 
language and diversity, it does not even begin to cover it.
    Ms. Waters. So that would be both radio, television and 
newspaper.
    What about you, Mr. Vargas?
    Mr. Vargas. What we would recommend in those local buys 
that the media buys be more strategic and that more weight be 
given to hard-to-count rate scores and mail response rate 
scores versus the size of a population.
    Ms. Waters. But the bottom line is, do you believe that we 
need to put more money into those local media buys? And we 
could design better and give advice about what they should be, 
but there should be more money to do the job.
    Mr. Vargas. There should be more money in local media buys. 
But I think it would be as important which local markets are 
selected for additional media buys.
    Ms. Samhan. I agree. I think it would be more beneficial to 
have more money in the local media buys. It does depend on 
where. We have a very small media in the Arabic media language 
to choose from; and, of course, we are the smallest percentage 
of the foreign language media buys as well. But I think that 
more local-based media is a good idea.
    Ms. Waters. What about you, Ms. Smith?
    Ms. Smith. I actually agree that would be a good thing, but 
I also think that there's an opportunity through the earned 
media and the use of the nonprofit community to get this word 
out. We have no budgets usually for media, and yet we work with 
the media a lot. I think just making the news, for example, in 
the case of children under the age of 5 being undercounted, we 
can go out and get media in other ways.
    Ms. Waters. So you're basically saying, in addition to 
media as we know it, the print and electronic media, that the 
non-profits have networks about which they should be supported 
to get the word out, also.
    Well, I thank you all. That's where I'm going with all of 
this. I really do think there needs to be more money to get to 
these populations and to be able to motivate in whatever the 
two phases are. I have a real appreciation for learning about 
Thomas Jefferson, but we really do have to get to the people 
who are going to fill out these forms and get them back. So if 
we make this recommendation, we are going to be looking for you 
for support. Thank you.
    Mr. Clay [presiding]. Thank you very much. Thank you for 
your indulgence.
    Representative Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I'd like to follow the line of questioning that my 
colleague and you have made the record, so let me just ask the 
question, Ms. Narasaki, do you believe there should be an 
enhanced funding for media that outreaches to diverse groups, 
including print and radio in particular?
    Ms. Narasaki. Yes, I do. It is something that we have been 
advocating for over the last several years. We've had to 
advocate each year for increased funding for the Asian American 
media for the paid advertising as well as the community 
outreach. Those things are really important.
    Ms. Jackson Lee. And for fear of the interpretation of our 
position being considered either self-serving or to give 
another small business some money, can you articulate how 
important these cultural entities are to our communities or to 
communities of color, meaning their radio, print media, that is 
a comfortable vehicle? Why are you suggesting that you need 
that increase in the media? What does that do in terms of 
helping to eliminate or work against the undercount?
    Ms. Narasaki. Well, as you know, it actually helps the 
American public generally, because the more people you can get 
to respond to the mail initially, it saves in nonresponse 
followup. So we are trying to advocate for something that would 
be an overall helpful benefit to the Nation as a whole.
    The second thing is ethnic local media understand what are 
the messages that are going to most encourage people to 
respond, what is most important to the local community, how to 
best phrase that particularly in language, how to best 
communicate that, and they are the most trusted sources to get 
over the issue of fear about confidentiality and government 
intrusiveness.
    Ms. Jackson Lee. That's a term that I'm going to use, is 
the ``most trusted vehicle,'' which is a very important point 
in our mutual communities.
    Mr. Vargas, why don't you comment on the thrust of my 
questions. You made a point about the broad brush on Latinos 
all going to Spanish speaking, when there are any large numbers 
of Latinos who are English speaking. Why don't you speak to the 
need for media that is culturally relevant?
    Mr. Vargas. Again, I think Spanish-language media is very 
effective in reaching the population that consumes Spanish-
language media. I will refer to my written testimony where we 
say research that--where Spanish-language media actually is 
able to increase, for example, voter turnout rates. But we also 
know voter turnout rates are the lowest among native-born 
English speaking Latinos, and it is that segment we believe is 
the hardest to count. So ignoring vehicles, media vehicles that 
use English language to reach these populations, whether they 
be young people or people who are disaffected from society, I 
think is a real missed opportunity. This is something we raised 
with the Bureau over a year ago, that the lack of an English-
language media strategy could be a problem in the 2010 census.
    Ms. Jackson Lee. You listened to the listing that the 
previous witness gave about how much money is being spent on 
national and local. When the contract is $300 million--and my 
understanding is that the Census Bureau is not the ones that 
deciphered or delineated or categorized how the moneys would be 
spent--would you make the argument that there should be a 
returning to the drawing board to reconsider or reconfigure 
that funding breakdown?
    Mr. Vargas. With all due respect, I think we are already 
past the 11th hour figuratively and literally tonight. The 
Census is weeks away, and these media buys have been made. I 
think the most effective thing to do now is to identify those 
local media markets that did not get local buys with 
significant rates of hard-to-count communities and low-mail-
response rates and do additional local media targeting in those 
communities.
    Ms. Jackson Lee. I'm an optimist, and I hear what you're 
saying, but I do know they haven't spent the total $300 
million. So you're right. If they can't reconfigure, if the 
buys are solid, I guess I'm optimistic enough to say that some 
buys will be pulled down. But if that is not where they could 
go, then I would suggest that they dip into the $300 million.
    Let me quickly go to Ms. Samhan and Ms. Smith. Ms. Samhan, 
you have a unique community. If you would comment on the need 
to pertain to that unique community and how you think the 
Census is doing.
    Ms. Samhan. Well, as I said in my testimony, I believe that 
they are doing the best that they can with a relatively 
emerging market. This is the smallest percentage of the overall 
special market, foreign language media that was allocated. I 
expect that in the next Census operation it will increase, but 
it was under $800,000 for three language groups.
    So it's such a small drop in the bucket, and it was really 
for that reason that we realized that we needed to have a 
partnership effort that was to basically complement the limited 
funds that were available for these emerging language groups. 
So we did this PSA campaign, and we believe that actually 
there's a benefit to that as well because there's a way to get 
earned media and media from nongovernment sources or media 
about nongovernment sources supporting the Census. So we think 
that this partnership with all of the nonprofit organizations 
that represent our community speaking at the same time as the 
Census is advertising is actually a good thing.
    Ms. Jackson Lee. So we need to improve our partnerships.
    Let me put on the record the total that I heard Ms. Ennis 
speak to: $22 million for the broad minority community in terms 
of media, out of $300 million. There was a list of numbers that 
were given. I'm just putting this on the record. To my 
question, she gave me a list of numbers. It was $22 million.
    Mr. Vargas. I think that was for African American.
    Ms. Jackson Lee. I asked her to give me for all.
    Ms. Samhan. I think for her agency.
    Ms. Jackson Lee. Twenty-two million across the board for 
that. That is still--let me just put on the record $22 million 
for African American. Mr. Garcia did not respond. I will get it 
in writing.
    Let me just quickly conclude. I need to get back to Ms. 
Narasaki. Give us an answer to what you said was indicting and 
vital disorganization of the regional offices which many are 
seeing across the America. What do we need to do as Members of 
Congress to get right in the midst of that problem?
    Ms. Narasaki. I think it's helpful for Members of Congress 
to check into what kind of specialists have been hired in your 
district who are serving your district and to check and see 
whether you think it's reflecting the demography of the 
communities who actually make up your district and ask those 
questions. While the census day is April 1st, there's 
nonresponse followup, and that is going to be critical to have 
people who can knock on the doors and get the answers they need 
to get.
    Mr. Clay. The gentlewoman's time has expired.
    I now recognize Mr. Cuellar of Texas.
    Mr. Cuellar. Mr. Chairman, thank you. I have asked my 
questions already.
    Mr. Clay. Let me have one final question for the panel. Ms. 
Smith, is the Census in the Schools program adequate to count 
and involve the children of this Nation?
    Ms. Smith. I don't think I'm qualified actually to answer 
that question, because we work mostly with the population of 
children that are preschool age children and they have not been 
targeted by any of these programs.
    So I think if I were to make one comment to everything 
that's been said tonight, I think we really have a serious 
issue at looking at young parents in this country and how do we 
access them. They are new into all of this since the last 
Census. And we are obviously not getting to them, no matter who 
they are. Children under five are not counted, and they are not 
targeted with any sincerity right now in this count.
    Mr. Clay. Thank you for that response. I will make inquiry 
with the Census Bureau about the comprehensive approach to 
involving young people, since they are the most frequently 
undercounted of all segments of our population.
    Panel two is dismissed, and we will call forward panel 
three.
    While panel three is coming forward, in the interest of 
time I will also announce that Marcelo Tapia and Hubert James 
will not appear tonight for various reasons.
    Also, we will include in the record the statements of 
Representative Hank Johnson as well as Representative Crowley 
of New York.
    [The prepared statement of Hon. Henry C. ``Hank'' Johnson 
follows:]

[GRAPHIC] [TIFF OMITTED] T1800.316

    Mr. Clay. Our final panel today comprises those with media 
expertise on reaching those hard-to-count populations focused 
on by Census efforts.
    First on our panel is Mr. Danny J. Bakewell. Mr. Bakewell 
is the chairman of the National Newspaper Publishers 
Association. The NNPA represents more than 200 Black community 
newspapers from across the United States. Mr. Bakewell is the 
executive publisher of the Los Angeles Sentinel and owns WBOK 
radio station in New Orleans. He is the recipient of numerous 
awards, including the NAACP Image Award and the Congressional 
Black Caucus Adam Clayton Powell Award. Mr. Bakewell is a much-
sought-after speaker, community organizer, and leader.
    Welcome to the committee.
    Next, we have Mr. James Winston, executive director and 
general counsel of the National Association of Black Owned 
Broadcasters. Mr. Winston is a partner in the D.C. law firm of 
Rubin, Winston, Diercks, Harris, and Cooke. He has been the 
Executive Director of NABOB since 1982. From 1978 to 1980, Mr. 
Winston served as Legal Assistant to FCC Commissioner Robert 
Lee. Mr. Winston is a graduate of Harvard Law School and holds 
a bachelor of science degree in electrical engineering from the 
University of Pennsylvania.
    Welcome to the committee.
    Next, we have Ms. Sandy Close, executive director of New 
American Media. New American Media is the country's first and 
largest national collaboration and advocate of 2,000 ethnic 
news organizations, founded by the nonprofit Pacific News 
Service in 1996. NAM is headquartered in California. Ms. Close 
has served as executive director of Pacific News service since 
1974. A graduate of UC Berkeley, Sandy was formerly China 
editor of the Far East Eastern Economic Review in Hong Kong and 
founder of the Oakland-based Flatlands Newspaper.
    Thank you for appearing before the subcommittee today.
    It is the policy of this committee to swear in all 
witnesses before they testify. I'd like to ask each witness to 
please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that all witnesses 
responded in the affirmative.
    Each of you will have 5 minutes to make an opening 
statement, and your complete testimony will be included in the 
hearing record.
    Of course, we have a lighting system which will be operated 
as soon as my friend gets back.
    Anyway, Mr. Bakewell, you are free to begin.

  STATEMENTS OF DANNY BAKEWELL, CHAIRMAN, NATIONAL NEWSPAPER 
 PUBLISHERS ASSOCIATION; JAMES L. WINSTON, EXECUTIVE DIRECTOR, 
  NATIONAL ASSOCIATION OF BLACK OWNED BROADCASTERS; AND SANDY 
          CLOSE, EXECUTIVE DIRECTOR, NEW AMERICA MEDIA

                  STATEMENT OF DANNY BAKEWELL

    Mr. Bakewell. Thank you.
    Congressman Clay and members of the committee, I'd like to 
thank you for giving me the opportunity to speak before your 
committee this evening. It is really an honor to be here.
    Congressman Clay, I want to give you a particular vote of 
confidence or an acknowledgment for the leadership and vision 
that you have demonstrated in holding these hearings. They are 
much needed, and hopefully at the end of these hearings you 
will know that there is much needed to be done.
    I also want to thank the members on the committee for the 
vigilant and direct questioning that you have posed to members 
of the Census. Sometimes when you come before Congress you guys 
are so polite and you're so busy asking for the gentlelady and 
the gentleman and the gentle cousin, we get lost in terms of 
the substance of what it is we are trying to accomplish here. 
So I thank you very much for the directness of your 
questioning.
    In my time allotted, I'd like to provide you with an 
enhanced version of my written testimony which I have 
submitted.
    As chairman of the National Newspaper Publishers 
Association, which is the Black press of America, I represent 
nearly 200 Black newspapers and publishers throughout America. 
NNPA members reach more than 19 million African Americans and 
people of Caribbean decent weekly. This year, NNPA celebrates 
our 70th anniversary. We are not newcomers to this game.
    During 2010, we will also celebrate 183 years of tradition 
and service when the first Black newspaper was founded, Freedom 
Journal. It's appropriate that the echo of those who founded 
Freedom Journal said, ``we desire to plead our own case;'' and 
that is very much what we are here today talking about.
    Black communities throughout America over the many years 
the Black press has established a legacy of trust built on 
honesty and accurately telling the stories of Black America 
from a Black perspective to Black Americans about Black 
Americans and other people of goodwill.
    The Black press is the fiber that connects Black 
communities small, large, rural, urban, throughout America. Our 
member newspapers publish in New York, Los Angeles, Chicago, 
Greensville, Durham, Shreveport, Michigan, St. Louis, Oakland, 
Atlanta, Norfolk, Washington, Baltimore, Texas, North Carolina, 
South Carolina, all across America.
    The Black press is the Black community's drumbeat felt, 
heard, read in Black households 52 weeks a year throughout the 
United States. The Black press has been and continues to be the 
gatekeeper and collector of our historical archives and records 
of every political issue, civil rights struggle, and social 
justice movement, the challenges, triumphs of our people.
    The Black press's ability to inform, advise, influence, and 
lead in the Black community is unmatched, unchallenged, and 
unquestioned. The Black community's trust and confidence in the 
Black press was forged over many years. No media represents the 
Black community better.
    Today, I am here to testify on the importance of the 2010 
census to Black Americans throughout America, and we want it to 
work. But I must tell you there seems to be a lack of 
importance given to delivering the 2010 census into all Black 
households throughout America, as evident by the Census's 
initial offer to buy advertisement in only a small portion of 
Black newspapers with a budget--they told you $1.7--it was $1.3 
million--to count 40 million Black people. This is a difficult 
task under any circumstances, but a budget of $1.3, you don't 
intend to count Black people.
    As you are aware, the second decade of undercounting Blacks 
will have a devastating impact on Blacks living in the United 
States for many years to come. We were undercounted by 2 
percent; and according to the statistics that I understand, 2 
percent represents about $178 million in terms of how that is 
correlated. If we come up short, we again, for every 1 percent, 
it will cost the government $90 million. So this is a clear 
case of being penny wise and pound foolish. We cannot let this 
happen.
    This is not a normal advertising campaign in which you can 
adjust your strategies. The Census has about, as it's been 
said, about 6 weeks to go. What happens when we get the count 
wrong? What happens when it comes back and all the households 
are not responding? We are going to be put in a position where 
we have to forever hold our peace.
    If we allow this to happen, Black Americans will receive 
reduced funding in education, health care, reduced resources 
from government. Black-elected officials will be severely 
compromised and threatened and in many instances lost. We 
cannot afford that. And I know you understand that.
    Today, I'm here to tell you that even though Black 
newspapers have the trust and respect of the Black community 
and despite having the ability to deliver advertising messages 
to the masses of Black consumers and Black people, the way we 
are going into the market is ineffective and must be altered 
now. Simply stated--and I met with and talked to many of you--
we need more money. The Black press of America needs at least 
$10 million to have a consistent message in 200 Black 
newspapers throughout the America.
    There is no reason to cherry-pick. Wherever Black 
newspapers are, that is where Black people are. We wouldn't 
operate if those communities weren't there. Nobody reads our 
papers but Black people. So if you want to communicate with 
Black people, you have to communicate through us. There are 
other mediums, just like they talked about the Super Bowl, $2.5 
million. Fine. But don't expect to count us. Don't expect to 
get any residue.
    You're talking about Thomas Jefferson. When we talk about 
Thomas Jefferson, we talk about him and his mistress. We ain't 
talking about him being the head of the Census.
    So let's be real. These people up here were talking to you 
like if they were teaching a class at Georgetown University. 
They had no emotion. They are just reading. They are just 
talking. They are just giddy-uping.
    And that is the same kind of message that they created to 
go into our communities. It's not provocative. Nobody can 
deliver a better message in Los Angeles than Maxine Waters. Why 
don't you put her in an advisement? Put Lacy Clay in the 
advertisement. Put Jackson Lee in the advertisement. That's the 
kind of stuff that we need. We need names and people and bodies 
that are trusted in our community.
    Let me get back to this script. If we are to--you cannot 
say that you want to count all Black people and then unveil a 
program to advertise in only 16 markets. That's where they 
started out, 16 markets. Didn't have Doris Ellis, didn't have 
Dr. Suggs, didn't have Amelia Ward. That's in places like 
Houston. That's in places like St. Louis. That's in places like 
Oakland, California. That's in places like North Carolina, 
South Carolina. No Black people live there? What's the deal? 
How can you do that? How egregious is this?
    Now we're up to 55 markets, but we still don't have all 200 
Black newspapers, and this is going to result in the greatest 
undercount in the history of Black America. And you and we will 
suffer from that.
    I beg you, as I have when I have met with you individually, 
not to let that happen. We cannot travel back down the road of 
having Black Americans once again undercounted and 
underrepresented in the U.S. Census. The message that we all 
count and need to be counted cannot be fully realized with an 
advertising campaign that reaches some African Americans. It 
must be geared to all African Americans. Black people do not 
live in only 16 markets in America. We live in America. Black 
people live in small, large cities, rural, urban, all over 
America. We must deliver the message where we live, where we 
pray, where we are educated, and where we are best informed.
    And the vehicle best to reach us continues to be Black 
newspapers, Black radio, and Black churches. No question about 
it. If we are serious about securing an accurate count, we must 
implement a comprehensive outreach plan that requires placement 
and advertising of every Black newspaper throughout America. If 
not, the 2010 census information is not going to be captured 
and once again Blacks are going to be undercounted and 
underrepresented, losing out on millions of dollars in our----
    Mr. Clay. Mr. Bakewell, thank you for your presentation. 
You went 4 minutes over, in the interest of the other 
witnesses. We will let you in the question and answer period 
elaborate even more. Thank you very much.
    [The prepared statement of Mr. Bakewell follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.317
    
    [GRAPHIC] [TIFF OMITTED] T1800.318
    
    [GRAPHIC] [TIFF OMITTED] T1800.319
    
    [GRAPHIC] [TIFF OMITTED] T1800.320
    
    Mr. Clay. Mr. Winston, 5 minutes.

                 STATEMENT OF JAMES L. WINSTON

    Mr. Winston. Thank you, Chairman Clay, Congresswoman 
Waters, Congressman Cuellar, Congresswoman Jackson Lee. Thank 
you all for staying to this late hour for this very important 
discussion.
    My name is James Winston, and I'm the executive director 
and general counsel of the National Association of Black Owned 
Broadcasters. I thank you for inviting me to testify.
    NABOB is the only trade association representing the 245 
Black-owned radio stations and 13 Black-owned television 
stations around the United States.
    I wish to provide comments on three subjects today.
    First, the paid advertising program targeting African 
Americans got started significantly later than for other 
communities. Second, there are problems with choosing stations 
based solely on Arbitron audience ratings. Third, the 
allocation of Census advertising dollars toward the African 
American communities should be increased.
    The ad campaign on general market stations began on January 
1st. However, the campaign targeting the African American 
community got started much later. Some stations have advertised 
only within the last few days that they will be receiving 
Census ad buys, and some which were previously advised that 
they would receive Census ad buys have yet to be receiving 
them.
    Congresswoman Jackson Lee, you made the comment about the 
Houston Sun; and, in questioning, Ms. Ennis from GlobalHue said 
that Houston Sun was on the ad buy. Obviously, they have not 
conveyed that information to you, which sounds exactly like a 
situation I had just last week.
    Congresswoman, you will appreciate that, KJLH in Los 
Angeles contacted me because they had not gotten a Census buy, 
although they had been told that they had one coming. When we 
contacted GlobalHue last week, they said there was some 
paperwork mix-up, but of course KJLH was on the buy, and they 
began the buy just a couple of days ago.
    So in addition to the lack of money we have, we are not 
getting it. They are behind the curve in getting the money out. 
Obviously, the program is going to end at the same time for 
everybody. So if we started more than a month behind, we can't 
possibly get the messages out in time where they need to be 
going.
    So that is a problem that needs to be looked into as to 
what took so long to get started and why there's still stations 
that were told they are getting buys that have not gotten 
bought yet.
    Worse than the timing issue, however, is the fact that in 
several markets the African American owned stations have been 
completely overlooked and all the Census Bureau ad buys have 
been placed with non-African American owned radio stations that 
target their programming through the African American 
audiences.
    These ad buys have relied upon Arbitron audience data to 
choose these stations. However, a coalition of Black and 
Hispanic broadcasters has demonstrated that Arbitron's new 
unaccredited measurement service, the Personal People Meter, 
discriminates against Black and Hispanic audiences.
    Indeed, Chairman Towns of this committee held a hearing 
investigating Arbitron's PPM on December 2nd of last year. 
After receiving testimony from the representatives of the PPM 
Coalition and Arbitron, Chairman Towns directed the parties to 
meet to resolve this ongoing controversy. The chairman warned 
Arbitron that they, the committee, would look at a legislative 
solution if the parties failed to do so. While the PPM 
Coalition and Arbitron have met numerous times, no resolution 
of this problem has been achieved.
    Moreover, even if the Arbitron data were reliable, reliance 
solely on Arbitron data would completely ignore the ability of 
Black-owned stations to connect with their communities. It is 
this connection shared by both Black-owned radio stations and 
Black-owned newspapers which has enabled these companies to 
survive for decades without Arbitron data and other data saying 
that we have large audiences.
    The connection between Black-owned radio and newspapers in 
their communities is not one that can be measured in and 
catalogued by Arbitron. It must be discerned from experience 
using those media to achieve a desired result whether to sell a 
product or convey important information relevant to that 
community. That is how you decide that a station is relevant to 
the community.
    Local talk show hosts and air personalities can have 
influence in their communities far beyond the audience number 
generated by Arbitron. Yet in many markets it appears that the 
Census Bureau advertising campaign has completely ignored this 
important fact.
    This leads me to my final point. The Census Bureau 
advertising budget needs to be revised to allocate more 
advertising dollars to Black-owned media. As the Bureau is well 
aware, some of the principal problems affecting the undercount 
in African American communities are distrust of government and 
a sense of disconnection from the government. Only a trusted 
voice in the local community can turn such attitudes around. 
Established Black-owned broadcast stations and newspapers are 
those trusted voices. They need to have a much more prominent 
role in the Census Bureau's advertising budget than they have 
had so far. I urge the committee to examine this matter further 
and direct the Bureau to make a greater utilization of Black-
owned media.
    Thank you for the opportunity to appear before you today.
    [The prepared statement of Mr. Winston follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.321
    
    [GRAPHIC] [TIFF OMITTED] T1800.322
    
    [GRAPHIC] [TIFF OMITTED] T1800.323
    
    [GRAPHIC] [TIFF OMITTED] T1800.324
    
    Mr. Clay. Thank you, Mr. Winston.
    Ms. Close, you may proceed.

                    STATEMENT OF SANDY CLOSE

    Ms. Close. Thank you very much.
    As the final speaker, probably the oldest speaker in this 
room, the speaker that just missed my airplane back to San 
Francisco, I want to echo what the last panel and my fellow 
panelists here said tonight to you and to wholeheartedly 
endorse the idea of expanding investment, especially during 
this last key, post-response phase of the campaign, to those 
ethnic media embedded in their communities where the low 
response rate makes them absolutely essential targets.
    I had hoped to show you a photograph, and I don't know if 
Anthony stayed. He had kept the photograph to put on the 
screen. Maybe he's already left. Because in some ways a picture 
is worth a thousands words.
    Let me then go back to my text very quickly and come to the 
most important example.
    Over the last year, New America Media organized 12 
briefings for the U.S. Census for over 600 ethnic media 
practitioners. We started in New Orleans. We went second to 
Detroit. Then we went to Atlanta, Houston, Chicago, Seattle, 
Phoenix. We literally canvassed ethnic media across the 
country, and you could cut their exuberance with a knife.
    For many of them, in Denver, for example, and in Houston, 
it was the first time they had ever seen each other around a 
table as a collective media force and at the table with the top 
Census people. And I do salute A.J. Jackson and Maria Mattos 
and Raul Cisneros and Steve Bruckner for trekking long 
distances to talk with them about the Census.
    The difficulty is that they get the Census. Juan Carlos 
Ramos in New Orleans in 2000, the undercounted Hispanics in 
that city prompted Coca-Cola to drop advertising in the 
Hispanic market in New Orleans.
    There is no question these media absolutely understand the 
importance of the Census to their audiences, and from our first 
briefing until our last in Seattle the anxiety and the sense 
of, in a way, confusion over how they could get involved was 
very clear. They wanted transparency, and there was very little 
transparency. How do we get in line? Whom can we call? No one 
answers our e-mails. No one answers our phone calls.
    Above all, they expressed frustration over messaging that, 
even while offered in 28 languages, was being created often far 
from their communities and by agencies they had very little 
input to.
    Mr. Clay. Excuse me, Ms. Close. The photo is up.
    Ms. Close. There are the photographs.
    ``It's important that Census advertising is being created 
in Vietnamese,'' says Thuy Vu of Saigon Radio in Houston, ``but 
it's not Houston Vietnamese.''
    Probably the best example came in Hupa, California, where 
the American Indian Hupa and Klamath River Tribes are served by 
two very important American Indian media. But take a look at 
the ads that the Census firms sent the Hupa, who have lived in 
redwood forests for 3,000 years. The first was of an American 
Indian against a cityscape, and the second was a plain Indian 
walking toward teepees. Both of them they rejected.
    We invested a very small amount of money that we raised 
from a foundation letting them shape their own messages; and if 
we can see that message, you will see the enormous difference.
    The third ad, which should be coming up right now, is Hupa 
looking out over their very isolated redwood forests and 
saying, ``if they don't count you, they will say no one lives 
here and they will take away our water rights.''
    The idea that our ethnic media are the ones who have the 
knowledge of their communities and should be helping to shape 
the messages is what leads me to my final point, because I want 
to keep this very short.
    In the last phase if there could be an SOS campaign, save 
our services campaign, targeting media that were left out of 
the ad buy, or like Joe Orozco of Hupa Radio felt they could 
have done a far better job messaging; like the San Bernardino 
Sun that was left out; like the Burmese newspaper that has 
Burmese audiences in Phoenix, in Houston, and in Nashville; 
like The Ethiopia here in Washington, with over a hundred 
thousand audience left out. They know what the messages are 
that will really inspire and cut through the fear, and the idea 
would be invest in them much as we invest in a community based 
organization.
    We don't have time for endless focus groups to shape these 
ads. We should let these media shape the messages to their 
communities. And let me tell you, as Freedom Journal put it, 
``we wish to plead our own cause. Too long have others spoken 
for us.'' They will convey the message that resonates in their 
communities.
    I have listed in my testimony some of the dozens of e-mails 
from over 47 percent of the media that came to our briefings 
with the U.S. Census but never received an ad buy. These folks 
did know how to apply. They did get in line. They did spend a 
day to be with the Census folks, and they are ready to go all 
out. Black media, Asian media, Hispanic media, Russian media, 
media that are really the unduplicatable audience-trusted 
messenger.
    And I hope that in this last phase of the campaign, we can 
maximize those dollars by giving them the leadership role to 
shape the messages for their communities. In doing that, you 
will reach 60 million ethnic adults who now rely on ethnic 
media. Ethnic media is the only sector whose audience has grown 
by 16 percent.
    In conclusion, it is also the media that, when asked ``what 
are your primary goals,'' 68 percent respond by saying service 
to the community. Only a third put making a profit as their 
goal. This is a resource we can't afford to lose as media 
meltdowns across the country. Your capacity to govern requires 
communicating with the governed. These are the media that are 
intermediary that are just totally ready to get involved to be 
at this table, and they have sent the messages to you through 
us which are excerpted in the testimony I have left with you. 
Thank you very much.
    [The prepared statement of Ms. Close follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.325
    
    [GRAPHIC] [TIFF OMITTED] T1800.326
    
    [GRAPHIC] [TIFF OMITTED] T1800.327
    
    [GRAPHIC] [TIFF OMITTED] T1800.328
    
    [GRAPHIC] [TIFF OMITTED] T1800.329
    
    [GRAPHIC] [TIFF OMITTED] T1800.330
    
    Mr. Clay. And we thank you for that testimony and what you 
have left this committee. It will certainly guide us in our 
advocacy for ethnic, so-called ethnic audiences.
    Let me recognize the gentlewoman from California first.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Let me thank you again for holding this hearing. This is 
very much needed. I think that we have gathered enough 
information here this evening to move and to get active to make 
sure that this so-called second phase or whatever they call it 
is done correctly; that more money is put into this advertising 
budget, more opportunities to shape the message from the local 
communities as you are describing you're right, this SOS. I 
agree with you 1,000 percent.
    Let me just say before I ask each of you if you agree that 
there's got to be more money, you mentioned about $10 million 
maybe for the African American press. And if we looked at all 
of the groups, we're probably talking about a total of at least 
somewhere between $30 million and $50 million more that's 
needed to cover everything.
    Danny Bakewell, may I ask you if in fact you advised the 
Census team that they should extract from you free press in 
order to get more money in the media buy from the Census team? 
Did they suggest that in some way? What happened with that 
conversation?
    Mr. Bakewell. Thank you, Congresswoman.
    I have submitted a letter. I gave you a copy of a letter, 
one to--that I sent to GlobalHue responding to that request, 
and then another letter which is a followup that identified 
specifically. And I want to read it into the record.
    What we said to them--they were talking about this issue of 
value added. We said you should ask--underline the word ask--
all of the Black newspapers who are committed to the Census and 
committed to making sure that Black people understand the 
importance of the Census, ask them to run articles, which we 
have been doing already, and ask them to run editorials 
reinforcing how important the Census is.
    They took the language that we gave them, which was to ask 
all of the newspapers, and this is what they wrote:
    In the lieu--this is very specific, Congresswoman, because 
you asked this woman, and she did not respond to this at all. 
As a matter of fact, this letter is directed to her and it 
starts off, ``I read your e-mail in the response to my letter 
to Mr. Coleman, and once again, you got it wrong!''
    What they said is, In lieu of free ad space in all papers--
all papers--must--underline the word must--agree to running six 
articles preferably during the hiatus weeks, about the census 
2010 as well as two editorials. If paper does not agree to the 
added value stipulation, buy will be canceled immediately.
    That was in the order, the insertion order, that they sent 
to the papers.
    Mr. Clay. What is the date of that?
    Mr. Bakewell. The letter that I sent to her was on January 
15th. And I want the record to reflect, some members have told 
me that they went to--they confronted members of the Census 
about this, and they said, I apologized. I have never 
apologized nor do I intend to apologize nor would I ever 
apologize about anything that I have said regarding to the 
Census's inability to respond to the Black community and the 
Black media in terms of allocating the appropriate amount of 
resources and having the political will.
    You have the political will, but they are refusing to carry 
out your political will by putting the appropriate resources 
next to it.
    So to answer your question, that was--and I apologize Mr. 
Chairman, for being out of order. I am a little aggravated. But 
the point was----
    Mr. Clay. I realize that you are very emotional about this.
    Mr. Bakewell. I am very passionate about this.
    Mr. Clay. Because you see the time slipping away from us as 
a Nation. I understand that.
    Mr. Bakewell. Absolutely. And this newspaper issue is my 
lane, and I am staying in it, and that was just an outright 
lie. I don't even understand how she could say that.
    Ms. Waters. Well, let me just say, if I may, reclaiming my 
time, Mr. Chairman, they were under oath when I asked the 
question. I tried to probe it in the length of time that we 
had, and I think that we were misled.
    So, Mr. Chairman, I will consult with you, but I think I am 
on the verge of asking for an investigation. First of all, it's 
discriminatory.
    Mr. Bakewell. Absolutely.
    Ms. Waters. And it appears that the African American 
newspapers are being told that they must give free space and 
editorials, or they will not get money.
    Mr. Bakewell. They have retracted that. In all fairness, 
after my letter and after my confrontation with Ms. Ennis, Mr. 
Coleman, who I never heard from and Mr.--what's his name? 
Jarvis? Jost? He did, they rescinded that, because we were 
about to hire a lawyer to sue them on the basis of our freedom 
of--you know, the right, freedom of information. You know? It 
was ridiculous.
    Ms. Waters. Well, you are absolutely correct. If it has 
been rescinded, and it's not been requested now, that will 
certainly cause me not to pursue an investigation in this 
matter. If it's one thing I can't stand, it is gross 
unfairness. I just will not tolerate that.
    Mr. Bakewell. Well, the fact that they did it, though, the 
fact that they did it. They don't do it--you asked the 
question, how was that in relationship to the--they probably 
asked, asked for added value for all of the media. That's sort 
of common in the industry. But to mandate and to say that you 
are going to be penalized punitively and we are going to take 
your advertising, that is reflective of the attitude and the 
mentality that they have when it comes to dealing with the 
Black press and the Black media.
    Mr. Clay. And thank you for that. And Representative 
Waters, we will review the testimony. And if we see a 
discrepancy, we will turn it over to the investigative arm of 
this committee.
    Ms. Waters. Thank you so much.
    And in wrapping up, I just want to make sure that if you 
decide to move forward to ask for supplemental appropriation or 
more money, whether or not these people who are here testifying 
tonight will be supportive of that, would you support----
    Mr. Bakewell. Absolutely.
    Ms. Waters [continuing]. Increased amount of money?
    Ms. Close. I would say something further about the Black 
press. Every city that we have gone to, and I will give you an 
example of Houston and New Orleans, where we have built ethnic 
media networks, it has been the Black media that have opened 
the door. They have been the gate openers. It isn't a question 
of Black media being told to run these--this material. The 
whole mindset is screwed up. The--it's a top-down mindset 
shaped by mainstream media advertising ideas. Mainstream media 
is melted down. It barely exists anymore. And now you have 
ethnic media that's growing because people can't do without it. 
They have the audience, and they are totally dedicated to this. 
But they are being ignored. They are not being asked what they 
would do to effectively message out.
    IW group is probably doing the best job of trying to get 
input from local Asian media about what would work in their 
communities, but they've been largely restricted, as Karen 
said, to national advertising.
    What we have to do, given the very limited time we have 
left, is bring our media and trust them to be the messengers 
and to help shape the messages, and not just leave it to a top-
down construct that has shown itself. They are not even here. 
Why didn't they stay? If I was getting $300 million, I would 
damned well stay for this hearing.
    Mr. Bakewell. Mr. Chairman, I know the hour is late, but it 
really is important to ask the question, why won't they follow 
our recommendations? The Black newspapers, as an example, as 
well as Black radio, we couldn't exist in communities where we 
don't have the host, the heart and souls of the communities 
supporting us. I mean, the fact that we would have tried and 
trusted organs in the community and we recommend to them that 
they buy it, I have had this conversation with Congresswoman 
Jackson Lee. We recommended Doris's paper, and they didn't take 
it.
    Eventually, after we badgered and we went back and we went 
back and had her call and I had conversations, the same is true 
with Congressman Clay. Why would that happen? How can you be 
committed to counting 40 million African Americans and come out 
with a program in 16 markets in America? It absolutely, I mean, 
befuddles the imagination.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I appreciate the time.
    Mr. Clay. Thank you so much, Representative Waters.
    Representative Jackson Lee.
    Ms. Jackson Lee. I can't thank the chairman enough for his 
leadership and vision on this issue.
    And, Mr. Chairman, I would like to have the Members who are 
here--I don't want to speak for them, but I know that if they 
are not on the committee, if we could have our staffs added to 
your e-mail list so that we can be aware, at your courtesy and 
invitation, to come to these upcoming hearings that I know that 
you are going to have.
    Mr. Clay. You certainly will be notified, invited, and most 
welcomed to attend.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Chairman, I am going to ask for an investigation. And 
since we are in this committee, I am going to make it official. 
And that will be up to you and your staff to assess. Because I 
made the point on the record that the Census contracts were 
rendered in the previous administration in 2007, there's an 
instructive point that I would like to make. I know timing is 
everything. But I would prefer contracts not being made by lame 
duck administrations, No. 1.
    But No. 2, because these contracts then disburse the $300 
million, so, in essence, I cannot go to Director Groves and ask 
for an accounting, then I would like to have an investigation 
as to the utilization of the $300 million. And I think 
Congresswoman Waters asked it, but I would like it to be in the 
form of an investigation; how were those dollars used? And.
    The previous panel, a witness said he believes that the cow 
is out of the barn. I don't know that. I am confused. Do I have 
$300 million left or a portion thereof? Do I have to have a 
supplemental, or can I go back in and reconfigure the buys? I 
don't know that. I am not a media buy person. I happen to think 
that you do have the opportunity to reconfigure some of the 
buys or some of the prioritizations.
    For example, I believe that the genius of the people 
sitting before us is stellar. I believe that Vince Young in 
Houston, TX, that won the Rose Bowl could be on an 
advertisement in the local papers and got more young people 
running to be in the Census than I can have any national star--
no disrespect to them or actor or whoever it is that is going 
to charge me a thousand dollars an hour. I think the local 
restaurant person that the Black newspaper or the Latino 
newspaper or the Asian newspaper or the Native American 
newspaper could put in or the chief in the tribe.
    Mr. Clay. Representative Jackson Lee, not to cut you off, 
but we will give you a full accounting of those $300 million.
    And Representative Cuellar has brought up some very valid 
issues about the expenditures being made, and so have you.
    Ms. Jackson Lee. And I did not let you answer, so let me 
just say that I am asking for an investigation, and the 
chairman has said that you will do some. So sorry.
    So I do believe, and then the reason why I am going on, on 
that point, is because if we look at whether there's production 
costs and the production cost is 90 percent, then I would say 
to Mr. Winston, I know you could get people interviewed on your 
stations that would have people running to be registered, to be 
part of the Census, as opposed to some production media that 
comes and you have to play.
    So let me ask this question, Mr. Bakewell. You are saying 
you have how many, 200?
    Mr. Bakewell. 200 Black publicists. Right.
    Ms. Jackson Lee. Mr. Chairman, can I put Mr. Bakewell's 
January 13, 2010--it may already be in--ask unanimous consent 
to put in the record?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.331
    
    [GRAPHIC] [TIFF OMITTED] T1800.332
    
    Mr. Clay. Without objection.
    Ms. Jackson Lee. To Mr. Coleman? And then his January 15, 
2010 letter to Ms. Ennis, I believe.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.333
    
    Mr. Clay. Without objection, so ordered.
    Ms. Jackson Lee. Thank you. I have a document here that 
indicates a list of local Black newspapers, and they go up to 
152, and you said there were 200. Is this something that you 
say has been fixed? Or what is this that I am looking at?
    Mr. Bakewell. I don't know what you are looking at. As far 
as we know, that all of our newspapers, in spite of the fact 
that we recommended all of them, they are not on the buy. We 
have some that was just put on the buy today. And one of the 
things that you have to be mindful of is that when you get put 
on the buy, what does that mean? What they have done is that, 
instead of all of the newspapers running advertising 
consistently, like we recommended that you start in January, 
you take a full page ad out and you run that every week 
consistently messaging, making sure that you have the right 
kind of layout. They ran--first of all, it didn't start in 
January. It didn't start until February, and it started for--
they gave some newspapers a 6 week run or a 4 week run, one 
full-page ad, one half-page ad, two quarter-page ads, and then 
you stop.
    Ms. Jackson Lee. Mr. Bakewell, I want to get on the record 
now. How many do you think, to your knowledge, is getting ads 
of your membership of 200?
    Mr. Bakewell. Our membership of 200, I don't think we're 
past 125.
    Ms. Jackson Lee. OK. I don't know where this came from. 
That's why this is part of the--they list 152. So you are 
saying that is inaccurate, to your knowledge?
    Mr. Bakewell. To my knowledge, we have not been confirmed 
that those are all our newspapers. There may be some papers 
that they are selecting who are not members----
    Ms. Waters. Would the gentleman yield for a minute?
    Congresswoman, I don't know what this represents, but 
there's one lame newspaper that's listed 18 times in 18 
different cities.
    Mr. Bakewell. Yes. That's Rollout. Yes.
    Ms. Waters. I want to tell you, something is wrong here. 
And so this really does have to be looked at because, you know, 
it's just so unusual. It is not something that most of us are 
aware of. And most of us are aware of the African American 
newspaper population all over the country. So when she says 
that's 152, and 18 of them are some newspaper that is supposed 
to be in 18 cities, that really has to be critiqued and looked 
at.
    Mr. Clay. We will have--the committee will ask for a full 
accounting of the buy for 18 for the rolling out publication.
    Ms. Close. If there were any way to also include the Afro-
Caribbean media, like the Ethiopian. One of the--the DraftFCB 
person mentioned Somali. But to our knowledge, the Somali media 
of Indianapolis and the Ethiopian media, but even more 
worrisome, why would San Bernardino, Riverside, the poorest and 
fastest-growing region in our State, left out both Spanish 
Language Radio and San Bernardino Sun? That is one of the 
oldest Black newspapers in the State.
    Mr. Bakewell. I know this is not my area, and it is 
Winston's area, but I will tell you one of the things that I 
went over today just in terms of talking about how--because we 
are all focusing on, how do we get this done? We are really not 
trying to find reasons not to do this. We are trying to 
consolidate to say, how do we make this a success? In terms of 
Black radio, they are--they have told them to go into the 
markets and go into the top 20 markets and take the top two 
rated stations for those markets. Those are probably Black 
programmed but not Black-owned stations. That does not mean 
that the Black-owned stations are not reaching both with depth 
and reach the community. But they are just not focused on us in 
a way that is representative and realistic.
    Mr. Clay. Representative Jackson Lee, if you would conclude 
your questioning.
    Ms. Jackson Lee. My staff has informed me that this list 
that I'm holding in my hand, the 152, came from the Census, 
U.S. Census. And maybe we can explore this.
    Mr. Chairman, I am going to ask unanimous consent to add 
this to the record. It is not labeled. It says List of Local 
Black Newspapers Receiving 2010 Census Advertisement. So maybe 
we can have a review of what this is, because it is in conflict 
with Mr. Bakewell.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1800.334
    
    [GRAPHIC] [TIFF OMITTED] T1800.335
    
    [GRAPHIC] [TIFF OMITTED] T1800.336
    
    Mr. Clay. Without objection.
    Ms. Jackson Lee. I want to move very quickly to Mr. Winston 
just to followup--and thank you--to followup on this question 
or this point that Mr. Bakewell has made. And I was going to 
have that very point.
    It would be helpful if you could submit from your 
perspective or your list to this committee what stations you 
know to be getting, out of your organization, to be getting 
advertisement.
    You say you have how many stations, Mr. Winston?
    Mr. Winston. There's 245 radio stations.
    Ms. Jackson Lee. I'm sorry.
    Mr. Winston. 245 radio stations, 13 television stations.
    Ms. Jackson Lee. Do you have knowledge that the 245 and the 
13 are getting advertisement?
    Mr. Winston. I know that many of them are not. I do not 
have an exact count. But I have had a number of stations 
contact me saying that they were--that they either have not 
heard from the Census Bureau at all, or they have been promised 
advertising that has never arrived. And I have seen, in my 
testimony, I mentioned exactly what Mr. Bakewell was talking 
about a minute ago about they're targeting stations based upon 
Arbitron ratings. So they are taking the Black targeted 
stations, which may have nothing to do with Black ownership and 
have no connections with the Black community.
    Ms. Jackson Lee. Then I would ask you if you would do your 
own research, maybe you all have the resources. But you've got 
245 and 13 television.
    Mr. Winston. Right.
    Ms. Jackson Lee. I'd appreciate it if you could give us 
that report.
    Second, I would ask, for example, to note whether or not--
and I use these only as examples, so I don't want the other 
universities to raise up their voices, but I use them as 
examples. WHUR, I am wondering whether they considered 
university-based stations. KTSU, Texas Sun University. I say 
that to say that's an odd component of our communities. Do they 
know that is, however, a very important part of our 
communities? And they're PBS, some of them, of course. But the 
point is they reach a population that we want to be counted. 
Would you check that for me, please?
    Mr. Winston. Sure. And WHUR is actually a commercial 
station. It is one of the NNPA member stations. So I will be 
happy to look into that as well. And I hope that you will also 
ask the Census Bureau for their record on what they say is the 
Black target stations and the Black-owned stations that they 
claim to have reached.
    Ms. Jackson Lee. And that's a very good point. I will just 
close, Mr. Chairman, by saying, Ms. Close, you have been very 
articulate.
    I just want this question to ask. Do you believe that it 
would be more effective to utilize local personalities and 
local focus and local content that would actually pierce and 
penetrate the neighborhoods throughout America that listen to 
localized programming and media?
    Mr. Bakewell.
    Mr. Bakewell. Absolutely.
    Ms. Jackson Lee. Mr. Winston.
    Mr. Winston. Absolutely.
    Ms. Jackson Lee. Ms. Close.
    Ms. Close. Absolutely.
    Ms. Jackson Lee. I yield back.
    Mr. Clay. Thank you so much, Ms. Jackson Lee. And thank you 
for your participating in the hearing.
    Let me close out by asking one question to each of you, and 
I will start with Ms. Close. Discuss for us, after seeing the 
initial photos and the ads, discuss for us the importance of 
specialized ethnic media outlets and motivating the hard-to-
count population, and speak to the necessity of recognizing 
cultural sensitivities in crafting a message. And you can bet 
that they are monitoring these hearings. So I want to hear it 
from you, someone that's in the field.
    Ms. Close. When I was in Hoopa, which is 7\1/2\ hour drive 
from San Francisco, a very isolated part of the State, the 
bumper stickers on the cars said ``Think you can trust 
government? Ask an Indian.''
    The people who run the Two Rivers Tribune--and I mentioned 
the Indian only now because we haven't really heard from the 
American Indian. The Two Rivers Tribune publisher said that 
most of the advertising to reach American Indians was going 
into billboards, and that most people in their community don't 
really go on the freeways. And, in any case, the Redwood 
Highway doesn't have billboards. And then they showed me those 
ads, the teepee ads. And they say they were too offended to run 
them. So we said, well, if we give you $2,000, will you come up 
with our your own?
    And this is what is so ridiculous, to imply that Black 
media need to be told what to run and what to editorialize. 
These media are chomping at the bit to develop their own 
messaging. And then they came up with that wonderful: If you 
want to save your water rights, be counted. Yes.
    Mr. Clay. Let me also ask Mr. Winston, how do past Census 
buys compare with the current effort in terms of your 
membership participating in media buy? Is it the same 
experience or different?
    Mr. Winston. I was told that, in actual dollars, the 
dollars that have come down so far this year are lower than the 
2000 census. And obviously, you have 10 years of inflation to 
add into those lower dollars. So it is significantly less in 
terms of what's happened. And I don't know if that's in part, 
as I said, there are people who have been promised dollars they 
haven't even seen yet. So I think part of it is failure of 
execution and also a question of the limited budget.
    Mr. Clay. Mr. Bakewell, the same question. How does that 
compare with 2000?
    Mr. Bakewell. I don't know specifically because I was not 
in this position as Chair of the NNPA. But I can tell you, many 
of the members have said to me that last time they got more 
money and the buys were more consistent. And that's what we 
have been fighting for, as you well know.
    Ms. Jackson Lee. The contract was purchased under another--
not purchased, but structured under another administration that 
we had a lot of input at that time. I remember--I don't know, 
Congresswoman, if you may yield, Mr. Chairman.
    I don't remember, Congresswoman Maxine Waters, but I think 
we had come together and really had an impact before they went 
out with the structure that they used. Even though we had 
undercounts, I remember specifically having outreach through 
congressional offices that made--much more that made a 
difference. Thank you for yielding.
    Mr. Bakewell. Congresswoman Waters, you asked a question, 
and I am not sure this is the specific answer, but I think it 
is. You asked the guy who was heading up, who was the head of 
the agency who got all the money, the $300-some million about 
RFPs. I think what he was sort of being very delicate about is 
that they put together a team, and the RFP that they are 
talking about was that he submitted the master agency and RFP 
for that one contract. All of those individual 12 agencies that 
he had did not submit an RFP to him. He selected them, and the 
RFP which he was telling you about was the one RFP that they 
submitted to the Census. So you were right on point and on 
track in terms of, there was a preselection of the people that 
he decided he wanted to have on his team.
    Mr. Clay. Let me close out this hearing and first thank all 
of the participants in this hearing. I believe it was 
exhaustive. I believe it was eye-opening. And I thank you for 
understanding the timeframe that we conducted this hearing in.
    Ms. Close, I am sorry about you missing your plane and 
sorry about you all being inconvenienced in this way. It was 
really unavoidable.
    Interesting issues have been raised this evening. This 
subcommittee will followup and share what we find with the 
participants of this committee--of this hearing, the whole 
issue of ethnic media, the entire issue of media bias, and we 
will move forward accordingly. And so let me thank you all.
    Mr. Bakewell. I really have to thank you. We really want to 
go on record as thanking you for the leadership. This is a most 
vital and important hearing. And, again, your leadership and 
your vision for knowing and making this an imperative hearing 
has been extraordinary to, I believe, ultimately trying to get 
to the bottom and getting a successful 2010 census count.
    Mr. Clay. Thank you, Mr. Bakewell.
    Mr. Winston. I join in Mr. Bakewell's comments.
    Mr. Clay. Thank you, Mr. Winston. And we will stay on this 
subject. And I thank all of you. The hearing is adjourned.
    [Whereupon, at 10:48 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1800.337

[GRAPHIC] [TIFF OMITTED] T1800.338

[GRAPHIC] [TIFF OMITTED] T1800.339

[GRAPHIC] [TIFF OMITTED] T1800.340

[GRAPHIC] [TIFF OMITTED] T1800.341

[GRAPHIC] [TIFF OMITTED] T1800.342

[GRAPHIC] [TIFF OMITTED] T1800.343

[GRAPHIC] [TIFF OMITTED] T1800.344

[GRAPHIC] [TIFF OMITTED] T1800.345

[GRAPHIC] [TIFF OMITTED] T1800.346

[GRAPHIC] [TIFF OMITTED] T1800.347

[GRAPHIC] [TIFF OMITTED] T1800.348

[GRAPHIC] [TIFF OMITTED] T1800.349

[GRAPHIC] [TIFF OMITTED] T1800.350

[GRAPHIC] [TIFF OMITTED] T1800.351

[GRAPHIC] [TIFF OMITTED] T1800.352

[GRAPHIC] [TIFF OMITTED] T1800.353

[GRAPHIC] [TIFF OMITTED] T1800.354

[GRAPHIC] [TIFF OMITTED] T1800.355

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
